                Office of
United States
Department of
Agriculture



                Inspector General
Office of
Inspector
General



                Semiannual Report
No. 54

February 2006



                to Congress
                FY 2005-Second Half
Mission of the Office of Inspector General


The Office of Inspector General (OIG) assists the U.S. Department of Agriculture
(USDA) by promoting effectiveness and integrity in the hundreds of programs of the
Department. These programs encompass a broad spectrum, involving such areas
as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research,
conservation, and forestry. They affect our citizens, our communities, and our
economy.

OFFICE OF INSPECTOR GENERAL                                 OIG MAJOR USDA MANAGEMENT
STRATEGIC GOALS                                             CHALLENGES
                                                            (Signed September 2, 2005)
We have focused nearly all of our audit and
investigative direct resources on our three strategic       •   Interagency Communications, Coordination, and
goals:                                                          Program Integration Need Improvement
                                                            •   Implementation of Strong, Integrated Management
•   Support USDA in the enhancement of safety and               Control (Internal Control) Systems Still Needed
    security measures to protect USDA and agricultural      •   Continuing Improvements Needed in Information
    resources and in related public health concerns.            Technology Security
•   Reduce program vulnerabilities and enhance              •   Reducing Improper Payments Continues To Be a
    integrity in the delivery of benefits to individuals.       Priority of Congress and the Administration
•   Increase the efficiency and effectiveness with          •   Departmental Efforts and Initiatives in Homeland
    which USDA manages and employs public assets                Security Need To Be Maintained
    and resources, including physical and information       •   Department-wide Efforts and Initiatives on
    resources.                                                  Genetically Engineered Organisms Need To Be
                                                                Strengthened

Contents


Safety, Security, and Public Health

Examples of Audit and Investigative Work for Goal 1 .................................................................................................. 1

Integrity of Benefits and Entitlements Programs

Examples of Audit and Investigative Work for Goal 2 .................................................................................................. 8

Management of Public Resources

Examples of Audit and Investigative Work for Goal 3 ................................................................................................ 15

Gauging the Impact of the OIG ............................................................................................................................... 21

Abbreviations of Organizations . ............................................................................................................................. 39
Safety, Security, and
Public Health

                                                              Management Challenges
OIG Strategic Goal 1: Support                                 Addressed Under GOAL 1
USDA in the enhancement of
                                                               •    Interagency Communications, Coordination,
safety and security measures to                                     and Program Integration Need Improvement
                                                                    (also under Goals 2 and 3)
protect USDA and agricultural                                  •    Continuing Improvements Needed in
                                                                    Information Technology (IT) Security (also
resources and in related public                                     under Goal 3)
                                                               •    Departmental Efforts and Initiatives in
health concerns                                                     Homeland Security Need To Be Maintained
                                                               •    Department-wide Efforts and Initiatives on
                                                                    Genetically Engineered Organisms (GEO)
                                                                    Need To Be Strengthened
OIG audits and investigations disclose weaknesses,
make recommendations for improvement, and highlight
strengths in USDA programs. OIG work helps the
Department protect consumers and provide a measure           EXAMPLES OF AUDIT AND
of confidence that the Nation’s commercial supply            INVESTIGATIVE WORK FOR GOAL 1
of imported and domestic meat, poultry, and egg
products is safe, wholesome, and correctly labeled;
                                                             OIG Continuing To Review Effectiveness of
protect production agriculture from pests, disease,
                                                             BSE Surveillance Program
and other threats; and protect USDA personnel and
property, as well as the public, from other threats.         We are continuing our work with bovine spongiform
                                                             encephalopathy (BSE), widely known as “mad cow
In the second half of FY 2005, 24.9 percent of our           disease.” With the discovery of a BSE-infected
total audit and investigative resources were devoted to      animal in December 2003, the Animal and Plant
Goal 1, with 77.8 percent of these resources assigned        Health Inspection Service (APHIS) decided to expand
to critical/high-impact work. A total of 68.1 percent        its Surveillance Program to test a larger number of
of our audit recommendations under Goal 1 resulted           high-risk animals—those that exhibited a disorder of
in management decision within 1 year, and 54.5               the central nervous system (CNS), such as difficulty
percent of our investigative cases had criminal, civil, or   standing, walking, etc., and cattle that died on the
administrative action taken. OIG issued 7 audit reports      farm from unclear causes. Our overall objective is
under Goal 1 during this reporting period and a total        to evaluate whether the expanded BSE Surveillance
of 11 audit reports during the full fiscal year. OIG’s       Program is accomplishing its intended objectives—to
investigations under Goal 1 yielded 21 indictments, 30       ensure detection with 99-percent confidence that the
convictions, and about $1 million in monetary results        BSE prevalence rate was 1 in 10 million and a swift
during this reporting period and 30 indictments, 44          response to its introduction into the United States—and
convictions, and about $1.4 million in monetary results      has been effectively implemented and administered.
during the full fiscal year.                                 Another objective is to evaluate whether the Food
                                                             Safety and Inspection Service (FSIS) has effectively
                                                             enforced the ban on Specified Risk Material (certain
                                                             beef tissues and products, i.e., brain, skull, eyes, spinal
                                                             cord) in meat products, and effectively implemented its
                                                             testing program and controls to prevent CNS tissue in
                                                             Advanced Meat Recovery systems (special equipment
                                                             to remove meat from bones similar to hand trimming in
                                                             that bones remain basically intact).




                                                                                                                      
Route for Cattle Smuggler Leads to Conviction,               the NSABB provides guidance in identifying dual-use
Proceedings Pending for Another                              research projects, ARS will use interim criteria for the
                                                             seven “experiments of concern” as defined by the
In September 2004, OIG and APHIS began an                    National Research Council of the National Academies.
investigation into the smuggling of cattle into the United   ARS will use the criteria to approve and monitor
States from Canada. In March 2005, 2 individuals were        projects on an ongoing basis.
indicted in U.S. Federal Court for smuggling 169 head
of cattle across the U.S. border through an Indian           Also, ARS does not check the backgrounds or know
Reservation, and then trucking them to U.S. auction          the number of all non-Government scientists that
houses. OIG, APHIS, and FSIS traced the path of the          collaborate on research projects involving sensitive
smuggled cattle to ensure that they were properly            knowledge. In addition, ARS posts sensitive information
slaughtered or returned to Canada. In July 2005, one         (e.g., names and locations of scientists working with
of the men pled guilty to smuggling and conspiracy           select agents) on the Internet, as well as abstracts of
charges with sentencing scheduled for November               scientific manuscripts dealing with dual-use research,
2005. Additional judicial proceedings against the other      some of which could be manipulated for destructive
defendant in this case are continuing.                       purposes. Finally, although ARS scientists routinely
                                                             share sensitive information with foreign scientists,
                                                             some from countries of concern, the agency had not
Criminal Charge Results and Disciplinary
                                                             applied for deemed export licenses issued by the
Measures Completed in Cramer Fire Tragedy
                                                             U.S. Department of Commerce (DOC). ARS is now
Last reporting period, one employee from the Cramer          developing policy and procedures on deemed export
Fire, Salmon-Challis National Forest, Idaho, entered         licenses and is working directly with DOC and with
into a pretrial diversion program for his part in the        other Federal agencies on a task group to address
deaths of two Forest Service (FS) helitack firefighters      common issues on deemed export policy.
caught in a burnover on July 22, 2003, while fighting
the fire. The employee was also terminated from his          ARS generally agreed with many of our
position with FS. FS disciplinary action against four        recommendations to identify, approve, and monitor
other management officials is now complete. One              dual-use research projects; in consultation with
employee was issued a letter of reprimand; and other         USDA’s Office of the General Counsel (OGC), will
employees a 3-day suspension, a 14-day suspension,           develop interim criteria for sensitive research; will
and a 10-day suspension, respectively. Action                develop policies and procedures based on risk factors
against another employee was not sustained, and no           for performing appropriate suitability determinations
disciplinary action was taken.                               of non-Government scientists involved in sensitive
                                                             research; and will develop policies and procedures for
                                                             submission of deemed export license applications to
Strengthening Controls of Sensitive Information
                                                             DOC before beginning sensitive research projects with
To Better Prevent Transfer of Sensitive
                                                             foreign scientists. (Adequacy of Controls To Prevent the
Technology
                                                             Improper Transfer of Sensitive Technology, Audit Report
Recommendations have been made to the Agricultural           No. 02601-0001-Ch)
Research Service (ARS) to enhance management
controls to prevent the improper transfer of sensitive
                                                             Weaknesses Exist in Safeguards and Security
technology. Of greatest concern, ARS has not identified
                                                             Over Dangerous Biological Agents and Toxins
which research projects are sensitive or dual use—that
is, which projects involve specialized knowledge that        APHIS has not fully implemented controls for enforcing
could be exploited by questionable individuals, such         safeguard and security measures to prevent access to
as bioterrorists. Moreover, no Government-wide criteria      dangerous biological agents and toxins, as required
have been established to identify dual-use research          by the Public Health Security and Bioterrorism
projects. The National Science Advisory Board for            Preparedness and Response Act of 2002. APHIS
Biosecurity (NSABB) has been created to tackle this          incorporated its select agent program into two existing
and other biosecurity issues, but it has established         services, Plant Protection and Quarantine (PPQ) and
no timeframes for issuing guidance. However, until



Veterinary Services (VS), without ensuring coordination     Biological Laboratory and Corporate Officials
and prompt legislative compliance between the two           Sentenced for Smuggling Viruses Into the
units.                                                      United States
The lack of a single responsible official and the failure   As previously reported for the second half of FY 2004,
to promptly allocate resources to effectively manage        company officials at a manufacturer and international
program operations contributed to the issues identified.    supplier of poultry vaccines were involved in the
APHIS did not ensure that all entities possessing,          smuggling of live viruses (Exotic Newcastle Disease
using, or transferring select agents or toxins were         (END) and Avian Influenza) from Saudi Arabia into
properly registered; did not establish a national           the United States. In addition to six former company
database of select agents as required by the law; did       officials who previously pled guilty to various charges,
not ensure that registrants had adequate security plans;    a former professor and department chairman at a
did not ensure consistent and thorough inspections          university in Delaware has pled guilty to aiding the
with followup procedures for deficiencies; and did          smuggling scheme, and a former employee of a poultry
not ensure that permit systems allowed transfer of          farm in Saudi Arabia has pled guilty to conspiracy to
select agents or toxins only to registered individuals or   conceal smuggled items and make false statements.
entities.                                                   In July 2005, four company officials were sentenced to
                                                            a total of 57 months in prison and more than $70,000
Following our June 8, 2004, Management Alert, APHIS         in fines. Two company employees previously had
reconciled initial notifications of possession received     been sentenced to probation. In August 2005, the
in October 2002 with registrations submitted in March       corporation pled guilty to criminal activity associated
2003 and found that three entities unlawfully possessed     with smuggling and was sentenced to 5 years of
select agents after the March 12, 2003, registration        probation and ordered to pay a $500,000 fine.
deadline. Two possessed select agents that posed a
severe risk to plant health, and the other possessed
                                                            AMS Needs To Improve Controls for Ensuring
a select agent that posed a severe risk to both animal
                                                            Wholesomeness, Quality in Ground Beef for
and human health. APHIS witnessed the destruction of
                                                            Schools
the select agents at all three entities.
                                                            AMS did not have adequate management controls
We recommended that APHIS designate a single                to fully ensure that ground beef was purchased from
official responsible for the select agent program,          qualified suppliers and met quality standards. OIG
who should immediately develop a national                   found that AMS’ management controls could not fully
registration database. We also recommended that             ensure that raw materials were free of pathogens;
APHIS strengthen its registration approval oversight,       took no action against suppliers with recurring
establish formal procedures for performing security         nonconformances, commodity complaints, and
inspections and follow up on the results, and establish     products that tested positive for prohibited pathogens;
a separate and secure permit system for the select          awarded contracts to suppliers with outstanding
agent program. Subsequent to report issuance,               nonconformances; and did not ensure that suppliers
we achieved management decision on 9 of the 10              used effective sample selection procedures.
recommendations. APHIS needs to provide timeframes
to establish formal procedures for performing security      We recommended that AMS require suppliers to keep
inspections. (Evaluation of the Implementation of the       records to ensure that prohibited materials are properly
Select Agent or Toxin Regulations, Phase I, Audit           identified, segregated, controlled, and not used in
Report No. 33601-2-At)                                      the production of AMS commodities. AMS should
                                                            also continuously evaluate supplier eligibility and
                                                            plant performance to ensure corrective actions have
                                                            been implemented and initiate enforcement actions
                                                            when appropriate. In addition, AMS should review a
                                                            contractor’s technical proposal before acceptance
                                                            to ensure that sample selection is unbiased, thereby
                                                            generating random samples that accurately represent


                                                                                                                      
the production universe. AMS implemented some of            compliance officers did not determine the amount of
the proposed corrective actions for the 2004-2005           product purchased by consignees for 26 of the recall’s
school year. (AMS Management Controls To Ensure             58 effectiveness checks. FSIS’ recall policy did not
Compliance With Purchase Specification Requirements         provide specific direction on identifying and evaluating
for Ground Beef, Audit Report No. 01099-31-Hy)              the amount of product purchased by consignees, thus
                                                            reducing assurance that mislabeled product had been
                                                            retrieved. FSIS agreed to revise its form, “Report of
Warehouse Manager Sentenced for Illegal
                                                            Recall Effectiveness,” to require compliance officers
Reboxing of Ammonia-Contaminated Chicken
                                                            to explain why any amounts of product purchased
That Sickened 170 School Children and Faculty
                                                            by consignees are not identified. FSIS also agreed
In a followup from last reporting period, in July 2005      to revise its procedures to provide specific direction
a warehouse operations manager was sentenced to             on identifying and evaluating the amount of product
serve 12 months and 1 day in prison, followed by 3          purchased by the consignees and guidance on when
years of supervised release, and fined $4,000. The          it is acceptable not to identify this amount. (FSIS
manager had pled guilty to reboxing adulterated             Oversight of the 2004 Recall by Quaker Maid Meats,
chicken product for school lunches in Illinois. He          Inc., Audit Report No. 24601-4-Hy)
provided false statements to Federal investigators
and attempted to manufacture false shipping records.
                                                            HACCP Systems at Very Small Plants Need To
The warehouse company, charged with violations of
                                                            Protect Consumers Better
the Poultry Inspection Act, pled guilty in March 2005
and was sentenced in August 2005 to pay restitution         FSIS implemented the requirements for Hazard
of $275,400 (primarily to the affected school district)     Analysis and Critical Control Point (HACCP) systems
and $2,250 in fines. From June 2002 to August 2002,         at very small plants on time; however, the systems
warehouse employees, under direction of the manager,        need improvement to ensure the wholesomeness of
unlawfully reboxed and relabeled federally inspected        meat and poultry, and to achieve total compliance
chicken products that had become contaminated by            under HACCP. The national office had not developed
a November 2001 ammonia leak. The warehouse was             written criteria on how districts should prioritize plants
not a licensed USDA-inspected warehouse and did             to receive food safety assessments, and tracked the
not have the authority to repackage or relabel USDA-        assessments poorly. Moreover, deficiencies were not
inspected product. The products, later served to school     linked to FSIS In-Plant Performance System reviews to
children in Illinois, were suspected of causing illnesses   determine which inspectors had not noted many of the
in at least 170 school children and faculty.                HACCP or other noncompliances that the food safety
                                                            assessments found, and why.
FSIS Needs To Track the Shipment of Recalled
                                                            We reviewed 36 HACCP plans at 15 plants and found
Product More Closely
                                                            HACCP plan deficiencies at 9 of these plants: hazard
On July 28, 2004, Quaker Maid Meats, Inc., recalled         analyses did not address all food safety hazards,
approximately 170,000 pounds of mislabeled ground           production process steps were omitted from process
beef patties made, in part, from 41,000 pounds of finely    flowcharts, and changes that occurred in production
textured beef trim (meat scavenged from beef taken off      processes were not always updated in the HACCP
the bone at high pressure) from Canada. This product        plans. In addition, six plants did not have adequate
was not eligible for importation after the detection of     Sanitation Standard Operating Procedures (SSOP) or
a Canadian cow with mad cow disease in May 2003.            did not maintain proper records to show that SSOP
The beef patties had been shipped to 474 distribution       procedures were followed. FSIS also had identified
centers and stores in 10 States; the recall recovered       repetitive noncompliance deficiencies that were not
more than 93 percent of the ineligible product.             adequately corrected at seven plants, including food
                                                            particles left in machinery and equipment, dripping
In reviewing the recall, we concluded that FSIS had         condensation, flaking paint over product processing
strengthened its procedures regarding the oversight         areas, and improper storage of product. In one plant,
of meat and poultry recalls and complied with the
recent revision made to recall policy. However, FSIS



we observed live rodents twice in 2 days, though           to require VMOs to complete more detailed reviews
inspectors had cited this plant for rodent problems on     of protocols, and it needs to require IACUCs to more
two other occasions during the past year.                  frequently review facilities with repeated violations
                                                           and fully train committee members on protocol review,
FSIS has taken some corrective steps, and we are           facility inspections, and the AWA. Finally, AC needs
continuing our work with it to address our series of       to implement temporary measures to address LARIS
recommendations to provide greater oversight over          deficiencies until its new system is operational, follow
HACCP implementation, SSOPs, and independent               APHIS policies for internal controls over cash collection,
reviews and supervision of plant and inspection            and promptly process receivables for collection.
activities. (HACCP Implementation at Very Small Plants,    APHIS generally concurred with the findings and
Audit Report No. 24601-5-At)                               recommendations. (APHIS AC Program Inspection and
                                                           Enforcement Activities, Audit Report No. 33002-3-SF)
APHIS’ Animal Care Unit Needs To Step Up
Aggressive Inspection, Enforcement                         Virginia Man Sentenced for Selling Animal
                                                           Fighting Videos and Books
APHIS’ Animal Care (AC) unit is responsible for
enforcing the Animal Welfare Act (AWA) through             In a followup from last reporting period, in April 2005
inspections of research facilities and by following up     a Virginia man was sentenced to 37 months in prison
on complaints of abuse and noncompliance. Although         and 3 years of probation, and fined $300. A jury had
AC inspectors are committed to enforcing the AWA and       found him guilty on three counts of selling, across
educating research facilities and others on the humane     State lines, videotapes that depict animal cruelty. This
handling of regulated animals, we identified several       individual received at least $50,000 on the sale of the
areas of concern. Lacking clear national guidance,         animal fighting merchandise. This was the first trial of
AC’s Eastern Region is not aggressively pursuing           an individual prosecuted under Title 18 United States
enforcement actions against violators of the AWA, and      Code, Section 48, enacted in December 1999. During
fines assessed against violators are usually minimal.      the investigation, OIG special agents and Pennsylvania
For example, AC offers a 75-percent discount on most       State Police officers seized a small truckload of books,
fines; generally does not base fines on the number of      videotapes, and other dogfighting paraphernalia.
animals affected; and charges large research facilities
relatively insignificant fines compared to much smaller
                                                           8 Additional Convictions for Cockfighting
entities. Some Veterinary Medical Officers (VMO)
                                                           Activity in California
did not verify the number of animals used in medical
research or adequately review the facilities’ protocols    In a followup from the second half of FY 2003, a
and other records, and some Institutional Animal Care      joint investigation with the Napa County, California,
and Use Committees (IACUC) at research facilities          Sheriff’s Department, as well as sheriff’s deputies and
are not effectively monitoring animal care activities or   animal control officers from several other counties, has
reviewing protocols. We also found that AC’s Licensing     yielded an additional eight convictions for “owning,
and Registration Information System (LARIS) does not       keeping, or training animals for fighting.” To date,
effectively track violations and prioritize inspections,   a total of 15 defendants have been convicted for
and AC did not follow the law and internal control         illegal possession of gamecocks. One defendant was
procedures in processing and collecting penalties.         sentenced to 30 days in prison, and 14 defendants
                                                           were sentenced to probation. One individual remains
We recommended that AC incorporate guidance                a fugitive. Additionally, the defendants were ordered to
into its manual to ensure consistent referrals and         pay $16,920 in restitution and fines. Our investigation
enforcement of the AWA, and review all cases where         led to the seizure of several thousand gamecocks. This
the regions decline to take enforcement actions. We        operation was particularly significant because fighting
recommended that APHIS eliminate the automatic             cocks contributed greatly to the spread of Exotic
75-percent discount for repeat violators or direct         Newcastle Disease in southern California and other
violations, calculate fines by the number of animals       States in the Southwest in late 2002 and early 2003.
affected, and consider seeking legislation to increase
fines up to $10,000 for research facilities. AC needs


                                                                                                                   
APHIS, Michigan Need To Tighten Controls in                  not document disposition of 113 of 645 animals
Bovine TB-Infected Zone                                      from 4 of 8 sampled TB-infected herds, which were
                                                             required to be depopulated or remain on the farm under
We audited APHIS’ National Cooperative State and             quarantine. In a separate analysis of MDA’s annual
Federal Bovine Tuberculosis (TB) Eradication Program         testing of herds in the infected zone, we found that
in Michigan, which had the highest prevalence of             APHIS and MDA could not account for the disposition
bovine TB in the United States. Although bovine TB           of 105 of 287 animals in 4 herds.
has nearly been eradicated from much of the United
States, scientific analysis has directly linked the spread   APHIS policy also led MDA to release two infected
of bovine TB from wildlife to cattle. The Secretary          herds from quarantine after preliminary lab test results,
of Agriculture declared an emergency in October              but before completing the final analysis. As a result,
2000, which authorized supplemental funding and              22 animals were moved from an infected herd to a
resources. The Michigan Department of Agriculture            farm in Michigan’s TB-free zone. These 22 animals
(MDA) determined that the disease was contained              were subsequently depopulated. In addition, APHIS’
in the northern half of Michigan’s Lower Peninsula,          classification system for bovine TB State status is
which it identified as “the infected zone” and where         based solely on cattle infections, despite the continued
it established more stringent testing and movement           presence of the disease in wildlife.
requirements for herds.
                                                             APHIS agreed to establish procedures to verify the
Michigan generally followed State and Federal rules          disposition of all animals in infected herds, reconcile
and regulations; however, weaknesses existed in              herd inventories to account for missing animals during
controls over the testing, movement, and depopulation        annual testing in Michigan’s infected zone, revise its
of animals in its infected zone. APHIS and MDA could         policy to maintain quarantines on herds in the infected

    ONGOING AND PLANNED REVIEWS FOR GOAL 1

    Topics that will be covered in ongoing or 		             •   assessment of the Farm Service Agency’s new
    planned reviews under Goal 1 include:                        port approval and inspection process made
    • implementation of the listed agent and toxin 	             effective July 1, 2004 (FSA),
        regulations, phase II (APHIS),                       •   BSE maintenance sampling, phase IV (APHIS 	
    • effectiveness of controls over the Bovine TB 	             and FSIS),
        Eradication Program (APHIS),                         •   followup on FS security over explosives,
    • assessment of efforts to identify and respond 	        •   FS Air Safety Program,
        to avian influenza (APHIS),                          •   controls over APHIS issuance of GEO release 	
    • U.S. Customs and Border Protection’s (CBP) 	               permits,
        agricultural inspection activities (APHIS),          •   controls over genetically engineered animal/		
    • the FSIS In-Plant Performance System (IPPS),               insect research (USDA),
    • FSIS State-Federal Cooperative Inspection 	            •   USDA’s role in the export of genetically 		
        Program,                                                 engineered agricultural commodities,
    • assessment of the equivalence of the 	                 •   USDA’s progress in enhancing agricultural 		
        Canadian Inspection System (FSIS),                       biosecurity through diagnostic and reporting 	
    • Pathogen Reduction Enforcement Program 		                  networks, and
        sampling procedures (FSIS),                          •   USDA homeland security initiatives.
    • egg processing inspection (FSIS),
    • interstate certificate of Veterinary Inspection 	
        System (APHIS),                                          The findings and recommendations from these
    • effectiveness of APHIS’ Safeguarding, 		                   efforts will be covered in future semiannual
        Intervention, & Trade Compliance’s controls 		           reports as the relevant audits and investigations
        to identify and prevent unauthorized entry of 	          are completed.
        prohibited products,



zone undergoing testing until the lab culture results      AMS also needs to improve management controls for
are known, and revise its classification standards to      administering NOP. In FY 2003, the eight complaints
recognize and account for the existence of bovine TB       referred to NOP for decision remain unresolved, one of
in the wildlife population. (National Cooperative State/   which involved a possible prohibited substance being
Federal Bovine TB Eradication Program, Audit Report        added to an organic product. These complaints require
No. 33099-5-Ch)                                            AMS Compliance personnel to obtain an interpretation
                                                           of NOP regulations by an NOP subject matter
                                                           expert, for which AMS does not have an established
AMS Needs To Work With Organic Board,
                                                           procedure, thereby reducing assurance of consistent
Strengthen Controls for the National Organic
                                                           standards in organic products.
Program (NOP)
The Agricultural Marketing Service (AMS) has not           AMS agreed to implement protocols for working
established protocols for working with the National        with the Board; direct NOP to establish procedures
Organic Standards Board because implementation             for receiving, reviewing, and implementing
of NOP and program concerns took precedence. By            recommendations from the Board; develop and
law, the Board is to advise the Secretary of Agriculture   implement internal operating procedures for such
on implementation of the Organic Foods Production          things as the resolution of complaints to govern
Act of 1990. AMS did not involve the Board when it         program operations; and resolve the eight cited
clarified program regulations (involving pesticide use,    complaints. We reached management decision on the
livestock health, livestock feed, and the scope of NOP)    10 recommendations at report issuance. (NOP, Audit
in April 2004 because, according to AMS officials,         Report No. 01001-2-Hy)
these clarifications merely stated what is enforceable
under existing regulations. However, the organic foods
industry and Members of the U.S. Congress saw these
as revisions to the regulations, so in May 2004 the
Secretary rescinded the guidance and directed AMS
to work with the Board. Further, AMS has not acted
on 26 recommendations from the Board for materials
to be approved for or prohibited from use in organic
production.




                                                                                                                
Integrity of Benefits and
Entitlements Programs

                                                              Management Challenges
OIG Strategic Goal 2: Reduce                                  Addressed UNDER GOAL 2
program vulnerabilities and
                                                               •   Interagency Communications, Coordination,
enhance integrity in the delivery of                               and Program Integration Need Improvement
                                                                   (also under Goals 1 and 3)
benefits to individuals                                        •   Implementation of Strong, Integrated
                                                                   Management Control (Internal Control)
                                                                   Systems Still Needed (also under Goal 3)

OIG conducts audits and investigations to ensure or
restore integrity in the various benefit and entitlement
programs of USDA, including a variety of programs that       EXAMPLES OF AUDIT AND
provide payments directly and indirectly to individuals      INVESTIGATIVE WORK FOR GOAL 2
or entities. These programs support nutrition, farm
production, and rural development and involved tens of
                                                             Livestock Assistance Initiatives Left Open to
billions of dollars in outlays for FY 2005.
                                                             Waste, Misuse
In the second half of FY 2005, 45.6 percent of our           Because of severe drought in the Great Plains and
total audit and investigative resources were devoted         Southwest, the 2002 Cattle Feed Program (CFP) and
to Goal 2, with 91.9 percent of these resources              the 2003 Nonfat Dry Milk Assistance initiative (2003
dedicated to critical/high-impact work. A total of 50        NDMA) distributed Commodity Credit Corporation-
percent of our audit recommendations under Goal 2            owned nonfat dry milk (NDM) as a protein supplement
resulted in management decision within 1 year, and           in livestock feed. In addition, the 2002 Livestock
67.9 percent of our investigative cases had criminal,        Compensation Program (LCP) provided monetary
civil, or administrative action taken. OIG issued 9 audit    assistance to livestock producers to help offset the
reports under Goal 2 during the reporting period and a       economic impact of qualifying natural disasters. Our
total of 16 audit reports during the full fiscal year. OIG   review disclosed that management controls did not
investigations under Goal 2 yielded 87 indictments, 104      ensure that NDM distributed through the CFP and
convictions, and about $40.4 million in monetary results     the 2003 NDMA was used for authorized purposes.
during the reporting period and 167 indictments, 193         Moreover, the management controls did not ensure that
convictions, and about $99.3 in monetary results during      quantities of NDM ordered by approved feed dealers
the full fiscal year.                                        were reasonable based on the numbers of livestock
                                                             designated to receive NDM-supplemented feed and
                                                             on the feed dealers’ capacity and resources to mix or
                                                             process such feed. Some feed dealers stored extensive
                                                             inventories of NDM outdoors for prolonged periods of
                                                             time.

                                                             One Nebraska feed dealer ordered 21 truckloads of
                                                             NDM for delivery to 3 Kansas livestock producers, with
                                                             transportation costs of $18,747, although producers
                                                             in the State of Kansas were not eligible under CFP. In
                                                             other cases, excess NDM was sold to third parties who
                                                             exported it to other countries. We referred two such
                                                             cases to OIG-Investigations. The U.S. Attorney’s Office
                                                             in Utah accepted one referral as a civil case involving
                                                             improper distribution of NDM to overseas locations and
                                                             possible incorporation of the NDM into human food
                                                             products, which was not intended under the program.



Under LCP, the payment rate per head of livestock            Indicted Ohio Murderer Converts FSA-
was calculated on analysis of economic losses due            Mortgaged Property To Pay Legal Fees
to long-term drought conditions, and payments were
initially issued to livestock operations in counties         An OIG investigation determined that an Ohio man
designated as disaster areas due to drought. Congress        who had been indicted for one count of aggravated
subsequently expanded LCP eligibility to all counties        murder and two counts of tampering with evidence
designated as disaster areas, regardless of the nature       converted $16,000 worth of FSA-mortgaged property
of the disasters. In response to a Congressional             to pay attorney’s fees resulting from the unrelated
inquiry, we found that, since basic eligibility under the    murder charge. Some of the proceeds from the
expanded LCP hinged upon whether the livestock               converted collateral were paid to the man’s father
operation was located in a disaster county, livestock        and were eventually used to pay off a loan that the
operations in counties affected by nondrought-related        father had obtained to pay for the man’s legal fees and
disasters received the same per-head compensation            bond. In December 2004, the man pled guilty and was
as operations in counties that suffered long-term            sentenced to 20 years to life for murder, tampering
drought, regardless of actual economic losses. We            with evidence, illegally possessing a firearm, and
noted that $159 million in LCP payments were issued          defrauding creditors in relation to the FSA loan. He
to livestock producers in States and counties that did       received a concurrent 17-month prison sentence for the
not experience long-term drought conditions.                 conversion of FSA collateral, and was ordered to pay
                                                             restitution.
We recommended that FSA recover the transportation
costs associated with the 21 truckloads of NDM
                                                             8 Persons Found Guilty in $13 Million Federal
improperly ordered and develop recommendations
                                                             Crop Insurance Fraud Scheme, Forfeiture of
for future NDM assistance programs based on
                                                             $7.3 Million and $9.15 Million in Restitution
best practices/lessons learned. As part of the
                                                             Ordered
implementation of the 2004 NDMA, FSA implemented
significant actions to restrict the quantities and end-use   Eight individuals in North Carolina were found guilty on
of NDM made available under the program. For future          a variety of charges involving a complex conspiracy
LCPs, FSA agreed to seek to establish supplemental           to defraud the Federal Crop Insurance Corporation
eligibility criteria, such as producers’ proof of loss or    (FCIC) and several private insurance companies of
an economic analysis to tie the program payment rate         more than $13 million from 1997 to 2001. An extensive
to economic losses caused by the disasters within the        3-year investigation by OIG, the Risk Management
eligible areas. (FSA Livestock Feed and Compensation         Agency’s (RMA) Special Investigation Branch, and
Programs, Audit Report No. 03099-52-KC)                      Internal Revenue Service (IRS) Criminal Investigation
                                                             (CI) revealed that the owners of a corporation received
                                                             more than $9.28 million in crop insurance payments
                                                             and were attempting to obtain an additional $3.8
                                                             million based on an elaborate scheme of providing
                                                             false documents to insurance companies reinsured
                                                             by RMA. They hid production through manipulation of
                                                             documentation filed with FCIC, manipulated maps of
                                                             claimed cropland, and posed crop damage by throwing
                                                             ice in a field to photograph it and claim hail damage.
                                                             The U.S. Marshals Service seized millions of dollars
                                                             of real property and vehicles for possible forfeiture.
                                                             In September 2005, one producer and his wife were
                                                             sentenced to 76 and 66 months of imprisonment,
                                                             respectively, and ordered to forfeit $7.3 million and pay
                                                             $9.15 million in restitution to USDA.

A significant amount of excess nonfat dry milk was stored
outdoors. OIG photo.



                                                                                                                     
Potato Farmer Sentenced to Significant Prison                We recommended that RUS clarify its definition of
Time and Restitution                                         eligible rural area and centralize the broadband loan
                                                             and grant programs administration. Also, RUS should
In June 2005, a Michigan potato farmer was sentenced         recover $30.4 million in defaulted loans and $1.9
to 84 months in prison and ordered to pay more               million in grants issued to the company that deviated
than $2.2 million in restitution for mail fraud, false       from its grant agreement, deobligate $762,226 in grant
statements, and false claims. The producer had falsified     funds approved to the same company, and review the
actual production history records to increase his            $59,278,582 of funds not drawn down and deobligate
crop insurance indemnity payments and fraudulently           them as appropriate.
received more than $2.1 million over 4 years.
                                                             RUS has cited the differentiation between the criteria
                                                             for the now-defunct pilot loan and grant programs and
Improvements Needed in Broadband Grants
                                                             the current 2002 Farm Bill-based Broadband Program.
and Loans
                                                             In response, we acknowledge that there were unique
The Rural Utilities Service’s (RUS) management               statutory requirements for each of the programs;
controls over the Broadband Grant and Loan Programs          however, the definition of “rural area” for loans was a
need improvement. RUS has not exclusively served             problem during the pilot loan programs and remains a
those rural communities most requiring Federal               problem in the current 2002 Farm Bill program. Further,
assistance—its definition of “rural area” is too broad to    the lack of centralized administration and specific
distinguish between suburban and rural communities.          written procedures has also affected both the pilot loan
RUS has issued more than $103.4 million in loans             and grant programs and the 2002 Farm Bill program.
(nearly 12 percent of $854 million in program funds)         (Broadband Grant and Loan Programs, Audit Report
to communities near metropolitan areas, including            No. 09601-4-Te)
$45.6 million in loans to 19 planned subdivisions
on the outskirts of Houston, Texas. Two other loan
                                                             Loan Origination, Foreclosure Processing Still
applications totaling $26.4 million were pending for
                                                             Lacking in South Carolina
similar communities near Houston as well as Los
Angeles, California. In addition, RUS’ selection process     Our audit found that South Carolina’s Rural
cannot guarantee that areas without service will             Development (RD) Single-Family Housing (SFH) Section
receive priority over areas where a borrower is merely       502 loan program lacked sufficient management
upgrading service or entering into competition with          controls in the loan origination process to limit the
preexisting providers.                                       number of loan delinquencies. South Carolina’s loan
                                                             originators did not always follow existing policies and
We also found a lack of centralized administration           procedures, did not always calculate annual income
and no specific written procedures for approving and         correctly and consistently, and improperly waived
servicing broadband grants and loans. Consequently, a        borrowers’ adverse credit histories. As a result, 17
total of $236.6 million (26 percent of program funds) has    loans (11 direct and 6 guaranteed), totaling $931,861,
been used inefficiently or not at all, or has not produced   of the 48 that we tested had borrowers that lacked
the expected return in service. Incomplete or inaccurate     repayment ability, which led to 5 foreclosures, 3
loan applications were approved, grants were made            bankruptcies, and 9 delinquent accounts.
to a company that deviated from the planned use
in the grant agreement, loans defaulted because of           We also found that South Carolina’s RD State Office
inadequate servicing, approved grants and loans were         did not adhere to its regulations in servicing foreclosure
never drawn down and used, and canceled loans were           accounts, which caused late processing. Further,
not used on time and therefore lost. Finally, because it     State Office officials did not adequately monitor their
has not considered the grant program permanent, RUS          foreclosure process. The resultant higher number of
divides the administration of grants and loans, which        delinquent accounts and longer periods of delinquency
may lessen consistency in processing applications.           caused South Carolina’s overall direct loan delinquency
For example, a $383,284 grant issued to a community          rate, historically one of the highest in the Nation, to
where a $3.3 million loan had already been provided          remain high. Our sampling averaged between 823 and
directly violated grant provisions.                          1,317 elapsed days, with no contact made with OGC or
                                                             the U.S. Attorney’s Office (USAO).

10
We recommended that controls be implemented                 We recommended that RBS contest the guaranty and
to determine income eligibility and justify waivers         recover the $2,502,954 (includes the $75,000 used by
of adverse credit history, that statewide internal          the lender for unauthorized purposes) and debar the
reviews ensure loan originators properly calculate          lender and its subsidiaries from the B&I Guaranteed
and document annual income and provide written              Loan Program. The Arkansas RD State Office agreed
justification for credit history waivers, and that loan     with the findings and recommendations and plans
specialists use required documentation to approve           to take corrective actions. (Request Audit of B&I
loans. We also recommended that the State Office            Guaranteed Loan in Arkansas, Audit Report No. 34099-
update the State servicing plan annually to incorporate     7-Te)
previously issued notices on foreclosure processing,
monitor foreclosure processing in order to notify OGC
                                                            54 Food Stamp Program Recipients Convicted
and USAO officials about foreclosure delays promptly,
                                                            of Fraud
and conduct a cost-benefit analysis and consult with
appropriate officials about using private attorneys         In a followup from the first half of FY 2004, a joint
to process foreclosure cases. South Carolina State          investigation with Federal, State, and local law
officials agreed and are implementing corrective            enforcement authorities in Tampa, Florida, has resulted
actions. (SFH Program in South Carolina, Audit Report       in 54 additional convictions of Food Stamp Program
No. 04099-340-At)                                           (FSP) recipients for discounting Electronic Benefits
                                                            Transfer (EBT) benefits for cash. The owner and three
                                                            employees of a community grocery store had received
Lender Misrepresented Crucial Information,
                                                            sentences ranging from 12 to 55 months in Federal
Misused Loan Funds, Costing Government $2.5
                                                            prison after pleading guilty to Federal charges of EBT
Million
                                                            fraud. From November 1998 to October 2002, the store
At the request of the Rural Business-Cooperative            redeemed more than $3 million in food stamp benefits.
Service (RBS), we audited a $3 million Business             The store owners were previously disqualified from
and Industry (B&I) guaranteed loan to a local oil and       FSP and conspired with an employee to fraudulently
gasoline distributor operating in Arkansas and Missouri     obtain an authorization to accept food stamp benefits.
for which RBS provided an 80-percent guarantee, or          The investigation has resulted in the prosecution of 67
$2.4 million. We found that the lender misrepresented       defendants and more than $5.9 million in restitution,
to the Arkansas RD State Office (1) the collateral values   $500,000 in money judgment orders, and $1.2 million in
of 20 company-owned stores used to distribute motor         cost avoidance.
vehicle fuel, (2) that 95 percent of the properties were
operational and upgraded at loan closing, and (3) that
                                                            Store Owner Convicted, Ordered To Repay
no major changes had occurred in the borrower’s
                                                            More Than $1.2 Million
loan condition between the conditional commitment
and loan closing. These misrepresentations directly         A store owner and employee in New York City pled
resulted in RBS approval of the loan guarantee. Major       guilty to illegally trafficking more than $1.2 million in
changes were not reported to RBS: for example, 6            EBT benefits, which were bought for cash at a discount
months before loan closing the borrower’s motor fuel        from recipients for 2 years starting in March 2002. The
license was revoked in Missouri, and 2 months before        owner admitted that he sent approximately $500,000
loan closing the U.S. Environmental Protection Agency       of his profits out of the United States to his homeland,
found 62 underground storage tank violations on 4 of        where he purchased two houses and a truck, and
the properties used as collateral. Also, the lender used    was arrested as he was preparing to return there. The
$75,000 of guaranteed loan funds for unauthorized           owner, sentenced to 36 months in prison and 3 years of
purposes. The lender sold the loan note guarantee on        probation, forfeited $1 million, and was fined $200 and
the secondary market and refused to purchase it from        ordered to pay $1.2 million in restitution. The employee
the holder when the borrower defaulted 9 months after       was sentenced to time served and 3 years of probation,
loan closing. RBS was then required by law to purchase      fined $200, and ordered to pay $1,804 in restitution.
the loan note guarantee for $2,388,830 plus accrued         This case was worked jointly with the Federal Bureau of
interest of $114,124.                                       Investigation (FBI).



                                                                                                                  11
Store Owners Arrested for Food Stamp                        redeemed about $1,118,203 in fraudulently obtained
Trafficking in “Operation Clean Swipe”                      WIC vouchers. The investigation began when an
                                                            inspection by the Texas Department of Health (TDH)
In January and March 2005, four grocery store owners        revealed numerous blank WIC vouchers hidden in
in Baton Rouge, Louisiana, pled guilty to wire fraud and    one of the stores. Employees of the store admitted
income tax evasion. Sentences ranged from 4 to 12           that vouchers routinely were falsely completed and
months in prison, and 2 to 3 years of probation, with       redeemed. Also, a large portion of the infant formula
fines and restitution totaling $214,028. The owners paid    sold through the stores was knowingly purchased
cash to conduct bogus transactions on customers’ EBT        as stolen product. The store owners had pled guilty
cards.                                                      in August 2004 to harboring and employing foreign
                                                            nationals who were residing in the United States
                                                            illegally to manage and operate the WIC stores. This
Daycare Provider Sentenced to Prison, Ordered
                                                            investigation was worked with the Joint Terrorism Task
To Pay $4.5 Million
                                                            Force (JTTF); the Pasadena, Texas, Police Department;
An Indianapolis, Indiana, woman was sentenced to            and TDH.
50 months in prison and ordered to pay restitution of
$4.5 million, and three associates were sentenced to
                                                            Store Employee Sentenced for WIC
2 years of probation and fined $500 for defrauding the
                                                            Embezzlement
Child and Adult Care Feeding Program (CACFP) and
U.S. Department of Health and Human Services (HHS)          In July 2005, a Texas woman was sentenced to serve
programs. From October 1997 to September 2002,              13 months in prison and 3 years of supervised release,
the woman, owner of 13 daycare educational centers,         and ordered to pay $123,618 in restitution to her former
and her employees inflated attendance numbers to            employer for embezzlement. From July 2003 to August
fraudulently obtain approximately $4.5 million from         2004, the woman, employed at a store that accepted
Federal programs, including about $3.3 million from         only WIC vouchers, embezzled $123,618 by cashing
CACFP. This was a joint investigation with USDA OIG-        store checks and vendor checks that were made
Audit, HHS OIG, and IRS CI.                                 payable to the store. This investigation was worked
                                                            jointly with the Odessa, Texas, Police Department.
Lunch Lady Jailed for Stealing From the
National School Lunch Program                               Former Arizona Community Nutrition Worker
                                                            and Accomplice Guilty of WIC Fraud
A former public school district lunchroom employee in
Michigan was sentenced to 6 months of imprisonment          In April and May 2005, a Maricopa County, Arizona,
and ordered to pay approximately $54,000 in restitution     Community Nutrition worker and her accomplice pled
for stealing proceeds of school lunch sales. The            guilty in Arizona Superior Court to fraudulent schemes
district, which participates in the National School Lunch   and artifices. They had fraudulently created at least 11
Program (NSLP), became suspicious of the employee           fictitious families for WIC and issued approximately 210
because of discrepancies in monies collected on days        WIC checks, worth $10,630, in their names. The county
the employee worked. The joint investigation with the       worker and accomplice used the checks to purchase
Boyne City Police Department determined that the            powdered baby formula and other WIC-approved food
employee had stolen lunchroom proceeds for 6 years.         items at local food stores, sold the baby formula, and
                                                            split the proceeds. They were placed on probation
                                                            and ordered to pay $21,260 in restitution. The county
2 Store Owners Sentenced for Laundering
                                                            worker was terminated from her job.
More Than $1 Million
In February 2005, the owners of two Texas Special
                                                            International Fugitive Captured Upon Return to
Supplemental Nutrition Program for Women, Infants,
                                                            United States
and Children (WIC) stores each were sentenced to 36
months in prison after pleading no contest to money         In September 2005, OIG and IRS CI agents, along
laundering charges in connection with WIC fraud. From       with personnel from the U.S. Marshals Service and
February 2003 to February 2004, the store owners            CBP, arrested the owner of a retail grocery store in


12
Detroit, Michigan, upon his return to the United States.    Minnesota Department of Education Improperly
The store owner and his uncle had fled the country          Used Federal Funds To Finance State Initiatives
in May 1996. The earlier investigation had disclosed
that this individual and his uncle, who also owned          At the request of FNS, we assessed the Minnesota
several retail stores in the Cleveland, Ohio, area,         Department of Education’s use of Federal funds
were illegally trafficking in food stamp benefits and       provided for Child Nutrition State Administrative
WIC vouchers. They were charged with conspiracy             Expenses (SAE). Previous audits and reviews reported
to convert $24 million in food stamps, conspiracy to        that the State agency mismanaged grant funds and had
illegally traffic $225,000 in WIC vouchers, conspiracy to   substantial problems with its accounting, expenditure,
launder $3.3 million (domestic), conspiracy to launder      and reporting of both Federal SAE and program funds.
$1 million (international), conspiracy to engage in a       The State agency is continuing to make corrections
pattern and practice to hire illegal aliens, and two        to its accounting system but has not yet developed
counts each of filing a false individual income tax         adequate procedures to ensure that its professional
return. In February 2000, a U.S. District Court judge       service contracts adhere to Federal guidelines. For FYs
issued a $71 million summary judgment against these         2000 through 2003, the State agency used more than
individuals. Sentencing for the store owner has not         $235,000 of $3 million in Federal SAE funds to finance
been scheduled. The uncle remains a fugitive.               computer enhancements unrelated to FNS’ Child

 ONGOING AND PLANNED REVIEWS FOR GOAL 2

  Topics that will be covered in ongoing or planned         •   controls over technical service providers (NRCS),
  reviews under Goal 2 include:                             •   Conservation Reserve Program (FSA),
  • continued monitoring of EBT implementation for          •   Conservation Security Program (NRCS),
      the Food Stamp Program (FNS),                         •   Environmental Quality Incentives Program
  • EBT implementation for WIC (FNS),                           (NRCS),
  • the Summer Food Service Program (FNS),                  •   effectiveness of status review process
  • WIC participant eligibility and vendor monitoring           in assessing producer compliance with
      (FNS),                                                    conservation provisions (FSA/NRCS),
  • the WIC program in Puerto Rico (FNS),                   •   RMA indemnity payments for 2004 Florida
  • Food Stamp Employment and Training Program                  hurricanes,
      (FNS),                                                •   effectiveness of RMA controls over prevented
  • Child Nutrition Labeling Program (FNS),                     planting indemnity payments,
  • Delta Regional Authority,                               •   controls over optional unit provisions (RMA),
  • SFH borrower income verification procedures             •   zero acreage reporting abuse (RMA),
      (Rural Housing Service (RHS)),                        •   Florida Hurricane Disaster Program crop
  • Guaranteed Rural Housing Loan Program                       insurance requirements (RMA),
      followup (RHS),                                       •   crop insurance agents’ sales practices (RMA),
  • Rural Rental Housing (RRH) construction costs           •   penalties required for inaccurate reporting of crop
      (RHS),                                                    insurance acreage (RMA),
  • the Farm Programs Fraud Indicator Study,                •   implementation of $500,000 claim decision
  • FSA implementation of the Tobacco Transition                process (RMA),
      Payment (Tobacco Buyout) Program,                     •   group risk crop insurance (RMA),
  • programmatic treatment of crop base on land             •   adjusted gross income limitation (NRCS), and
      included in conservation easements (FSA/Natural       •   assessment of controls over delivery of 2005
      Resources Conservation Service (NRCS)),                   relief assistance for Hurricanes Katrina, Rita, and
  • FSA administration of the prohibitions on farm              Wilma (USDA).
      loans for borrowers that have received debt
      forgiveness,                                          The findings and recommendations from these efforts
  • Direct and Countercyclical Program payment              will be covered in future semiannual reports as the
      yields (FSA),                                         relevant audits and investigations are completed.
  • Export Credit Guarantee Programs (FAS),

                                                                                                                  13
Nutrition Programs. FNS has collected the $235,120
in unallowable and improperly allocated costs, and
agreed to require the State agency to ensure that its
contracting procedures comply with Federal guidelines
as well as to establish appropriate contract criteria that
include a proper determination and allocation between
Federal and State cost objectives. (Controls Over the
Minnesota Department of Education’s Use of Federal
Funds, Audit Report No. 27010-19-Ch).




14
Management of Public Resources


                                                            Management Challenges
OIG Strategic Goal 3: Increase                              Addressed UNDER GOAL 3
the efficiency and effectiveness
                                                             •   Interagency Communications, Coordination,
with which USDA manages                                          and Program Integration Need Improvement
                                                                 (also under Goals 1 and 2)
and employs public assets and                                •   Implementation of Strong, Integrated
                                                                 Management Control (Internal Control)
resources, including physical and                                Systems Still Needed (also under Goal 2)
                                                             •   Continuing Improvements Needed in IT
information resources                                            Security (also under Goal 1)
                                                             •   Reducing Improper Payments Continues
                                                                 To Be a Priority of Congress and the
                                                                 Administration
OIG conducts audits and investigations that focus
on, for example, improved financial management and
accountability, information technology (IT) security and
management, protection of public assets, employee          EXAMPLES OF AUDIT AND
corruption, natural resources, research, and the           INVESTIGATIVE WORK FOR GOAL 3
Government Performance and Results Act.
                                                           NRCS Could Have Saved Millions of Dollars in
In second half of FY 2005, 29.5 percent of our total
                                                           WRP Conservation Easement Payments
audit and investigative resources were devoted to Goal
3, with 97.7 percent of these resources assigned to        The Wetlands Reserve Program (WRP) is a voluntary
critical/high-impact work. A total of 84.2 percent of      program that compensates landowners to take
our audit recommendations under Goal 3 resulted in         marginal agricultural land out of production and return
management decision within 1 year, and 60 percent          it to wetlands through conservation easements.
of our investigative cases had criminal, civil, or         The current enrollment limit is 2,275,000 acres with
administrative action taken in response to OIG reports.    estimated spending of $1.5 billion over the next 10
OIG issued 10 audit reports under Goal 3 during the        years.
reporting period and a total of 36 audit reports during
the full fiscal year. OIG investigations under Goal 3      We found significant deficiencies in the Natural
yielded 28 indictments, 24 convictions, and about $3.5     Resources Conservation Service’s (NRCS) WRP
million in monetary results during the reporting period    easement appraisal process: lack of qualified appraisal
and 41 indictments, 38 convictions, and about $6           staff, inadequate policies and procedures, inadequate
million in monetary results during the full fiscal year.   technical appraisal reviews, and an ineffective internal
                                                           review process. Also, NRCS’ compensation process
                                                           was based on outdated and invalid assumptions and
                                                           did not meet statutory requirements. The WRP statute
                                                           specifies that easement compensation cannot exceed
                                                           the fair market value (FMV) of the land before the
                                                           easement less the FMV of the land after the easement
                                                           (the residual value). If NRCS had complied with the
                                                           WRP statute, the agency could have achieved program
                                                           savings of at least $159 million over the last 5 fiscal
                                                           years in 13 States. In addition, NRCS purchased
                                                           crop base acres from producers without requiring
                                                           the producers to retire the acres from Federal farm
                                                           programs, and the agency’s controls were insufficient
                                                           to ensure that NRCS promptly notifies the Farm Service


                                                                                                                 15
Agency (FSA) of WRP easements. Of 17 farms with             5 Men Sentenced in ARS Bribery Scheme
WRP easements sampled in California, 7 received
ineligible FSA payments totaling $900,743.                  An ARS contracting officer and four Government
                                                            contractors were charged with bribery of a public
We recommended that NRCS appoint a Chief                    official, false claims, and wire fraud. In July 2004,
Appraiser to oversee a qualified appraisal staff, develop   the ARS employee was sentenced to 24 months in
an adequate technical appraisal review process,             prison, 3 years of supervised release, and restitution
and strengthen appraisals and periodic internal             of $52,400. By June 2005, the four contractors
reviews. NRCS also should estimate WRP easement             had received sentences ranging from 1 year of
compensation as the difference between the FMV              imprisonment to 6 months of home confinement. In
of the land before the easement and the FMV of the          2001 and 2002, construction and service contracts,
land after the easement. In addition, NRCS should           worth more than $1.5 million, from the ARS Mid-South
fully incorporate instructions on crop base disposition     Area Office were illegally awarded to Government
in the WRP manual and notify both producers and             contractors in Mississippi and Alabama. The ARS
FSA that crop base acres included in WRP appraisals         contracting officer received $71,900 in bribes.
must be retired. NRCS State Offices should provide
a periodic listing to FSA State Offices of all recorded
                                                            Vendor Scams Government Employee
WRP easements in their States. NRCS concurred,
                                                            Purchase Credit Card
and agreed to take corrective action on all audit
recommendations. FSA also agreed with the audit and         In October 2003, the owner of a furniture design
has referred the questioned cases to the California         company in Maryland fraudulently charged more than
State and County Committees for resolution. (WRP            $19,000 to an APHIS employee’s Government purchase
Compensation for WRP Easements, Audit Report No.            credit card. Previously, the APHIS employee, on official
10099-3-SF)                                                 business, had paid the furniture design company with
                                                            her Government purchase credit card. The owner of
                                                            the furniture design company subsequently misused
Giant Computer Software Company Agrees To
                                                            the account number to charge the APHIS employee
Pay $8 Million Civil Settlement
                                                            for various items of furniture that were not ordered
One of the largest enterprise computer software             or received. In April 2004, the owner was charged
companies agreed to pay $8 million in a July 2005           with theft, pled guilty, and was sentenced to home
civil settlement. It was alleged that, from 1997            confinement with electronic monitoring and $19,187 in
through 2003, the company had submitted false               restitution.
claims for payment for computer training to a variety
of Government agencies, including several USDA
                                                            FSA Employee Diverts Milk Program Payments
agencies, arising out of a master contract between
the company and the General Services Administration         In Michigan, a former FSA program technician was
(GSA). The false claims included billing and collecting     sentenced for diverting Milk Income Loss Contract
before providing training, “expiring” (forfeiting to the    Program payments earmarked for area dairy producers
company) millions of dollars paid in advance for training   into a personal bank account. The embezzlement,
services not used within 1 year, and failing to comply      occurring over 6 months, diverted approximately
with Federal Travel Regulations in billing for travel and   $39,000. The former employee was sentenced
expenses. After the investigation began, the company        to 6 months of home confinement, restitution of
stopped its prebilling, expiration, and noncompliant        approximately $39,000 to FSA, and 5 years of
travel and expense billing and entered into a contract      supervised release.
amendment with GSA that recognizes these continuing
obligations. This was a joint investigation with GSA
                                                            Employees Convicted for Using Their Position
OIG, the FBI, the Defense Criminal Investigative
                                                            To Aid Drug Dealers
Service, the Department of the Air Force’s Office of
Special Investigations, the Department of the Army’s        A series of investigations revealed that an RMA
Criminal Investigation Command, and the U.S. Postal         employee and an FSA employee prepared fraudulent
Inspection Service.                                         pay stubs that were transmitted via facsimile from


16
their Government offices to apartment rental offices to      in a program of mental health counseling. They must
support the rental applications of known drug dealers.       pay restitution of $39,447 and $74,934, respectively.
The pay stubs provided the appearance of legitimate          They resigned from their USDA positions. The co-
income to drug dealers in the metropolitan Washington,       conspirator pled guilty to conspiracy to commit theft of
D.C., area. In one case, fraudulent pay stubs between        Government funds and was sentenced to 12 months in
April 2002 and April 2003 were used to support a loan        prison, to be followed by 3 years of supervised release,
application for a sport utility vehicle and were provided    and restitution of $114,381.
to the drug dealer’s parole officer as proof of legitimate
employment. Both USDA employees resigned in lieu
                                                             Arrests Continue To Climb in Operation Talon
of termination. They were criminally prosecuted in May
2004 and September 2004, respectively, and charged           OIG began Operation Talon in early 1997 to locate and
with wire fraud. Both employees entered guilty pleas         apprehend fugitives, many of them violent offenders,
and were sentenced to supervised probation and were          who are current or former food stamp recipients.
fined.                                                       From its inception, and through September 30, 2005,
                                                             Operation Talon has resulted in 9,717 arrests of fugitive
                                                             felons during joint OIG-State and local law enforcement
NRCS Temporary Employee, 5 Co-Conspirators
                                                             operations.
Charged With Identity Theft
From January 2002 to August 2003, a temporary                During this reporting period, OIG agents and the
employee for NRCS in Columbia, Missouri, stole an            Las Vegas, Nevada, Metropolitan Police Department
employee roster with personal data and provided the          arrested 64 fugitives in a separate phase of Operation
information to her boyfriend in Chicago, who shared          Talon. Operation Talon arrests totaled 56 in the first
the personal data with four others. All six conspired to     weekend with 8 more in the days following, and 109
commit fraud by stealing names, dates of birth, Social       warrants were cleared. Operation Talon activities
Security numbers, and personal financial information to      conducted in Nashville and the central Tennessee
apply for credit cards, cellular phone service, driver’s     area resulted in 22 individuals being arrested in April
licenses, utility service, and bank accounts. They           2005 with the U.S. Marshals Service Fugitive Task
obtained credit limits of up to $25,000 and purchased        Force. Individuals arrested during Operation Talon in
a new car. In January 2004, the boyfriend was indicted       Nashville were fugitive felons wanted for crimes such
and agreed to cooperate. In June 2004, the former            as kidnapping and negligent homicide of a child; 1
NRCS employee and four others were indicted in               person was wanted for 80 counts of sexual assault and
Kansas City, Missouri, for conspiracy to commit identity     offenses.
theft. Four of the co-conspirators pled guilty and have
been sentenced to probation and various restitution
                                                             FSA Needs To Overhaul Its Compliance Review
amounts. One remains an international fugitive.
                                                             Processes
                                                             To ensure the accuracy of payments in its many farm
2 NRCS Employees and Co-Conspirator
                                                             programs, FSA requires numerous compliance reviews
Sentenced for Embezzlement
                                                             and spot checks, which are conducted by every FSA
Our investigation disclosed that two NRCS employees          local county office, FSA State offices, and various FSA
and a co-conspirator embezzled approximately                 national office staff. Our audit disclosed that FSA has
$114,000 in agency funds. From August 2001 to                not worked to assess the effectiveness of such reviews
October 2002, the NRCS employees forwarded                   over the years, and their design and performance have
Government checks and used their Government                  become somewhat perfunctory. We found that FSA
purchase cards to pay for office supplies from the co-       could improve both the effectiveness and efficiency of
conspirator which were never ordered or received by          its compliance reviews by using advanced techniques,
the agency, and divided the proceeds. Both employees         such as statistical sampling and data mining.
pled guilty to theft of Government funds and were
sentenced in June 2005 to serve 4 months and 10              For example, each FSA county office generally
months in prison, respectively, followed by supervised       performs annual acreage report spot checks and
release of 3 years, and will be required to participate      Marketing Assistance Loan/Loan Deficiency Payment


                                                                                                                   17
(MAL/LDP) spot checks for a randomly selected                 OCFO and OPPM generally concurred with our series
minimum number or percentage of cases. If FSA                 of recommendations to correct the noted deficiencies,
instead used nationwide statistical samples, it could         except OPPM did not agree that it shares responsibility
annually redirect more than 368,000 work hours, valued        with user agencies to help ensure internal controls are
at more than $3.7 million, to other important program         in place and operating effectively. The lack of effective
activities; moreover, FSA could statistically project the     internal controls within PCMS is evidenced by more
spot check results to the entire populations of acreage       than 1,400 cardholders not reconciling approximately
reports and MAL/LDPs. We also found that automation           6,700 transactions, totaling more than $3.4 million
of the reviews would facilitate the identification,           during FY 2003, within 30 days. OPPM should analyze
analysis, reporting, and reduction of improper                potential systemic controls within the PCMS application
payments.                                                     to prompt compliance by agency cardholders who
                                                              habitually do not reconcile and review transactions on
FSA should determine the most efficient and effective         time. We are continuing to work with OPPM to resolve
ways to perform its compliance reviews, perhaps               this issue. (PCMS Controls Need Strengthening, Audit
combining reviews and using advanced sampling                 Report No. 11099-44-FM)
techniques, and develop an implementation schedule.
We also recommended that FSA record the results of
                                                              FS Needs To Improve EERA Processes To
all its compliance reviews in an electronic format to
                                                              Boost Quality and Save Time, Money
facilitate national office review, analyze those results to
identify common problems and causes, and share the            The FS enters into emergency equipment rental
analyses with the appropriate FSA program divisions           agreements (EERA) annually to rent equipment (fire
and units. Finally, we recommended that FSA evaluate          engines, generators, etc.) for emergency firefighting.
the use of a data warehousing system to contain               In FY 2003 the FS spent $138 million on EERAs.
both program data and compliance review results.              Overall, our audit found that the FS does not fully use
FSA generally agreed with the recommendations                 the Federal Acquisition Regulations and other sound
and has organized a task force to examine its myriad          business practices to improve cost efficiency and
compliance reviews. (FSA Compliance Activities, Audit         vendor effectiveness. Most EERAs are established
Report No. 03601-12-Ch)                                       well in advance of the fire season, but the FS does not
                                                              ensure that there is open competition between vendors.
                                                              Limited trials with open competition have resulted
Purchase Card Program Provides Cost
                                                              in substantial cost savings. The number of vendors
Benefits, but Stronger Controls Could Identify
                                                              signed up with EERAs is not always consistent with
Improper Payments
                                                              agency needs, which wastes resources; in 2003, the FS
The Office of Procurement and Property Management             signed up more than 8,000 EERAs but used only about
(OPPM) manages the USDA Purchase Card Program                 half. In addition, the FS signs most EERAs annually,
(by which USDA agencies made more than $570 million           which requires an inordinate amount of FS contracting
in purchases in FY 2003) with IT support from the             resources, and consideration should be given to
Office of the Chief Financial Officer (OCFO). Generally,      extend the time vendors are available. Last, the FS
we found that purchase card transactions were proper          does not consider the quality of vendors’ service and
and the program provided a cost-beneficial process to         equipment, and FS information systems cannot provide
procure goods and services. However, strengthening            data on historical equipment usage patterns, vendor
certain program controls could help identify potentially      performance, or equipment quality.
improper payments and fraudulent activities. We found
users with unrestricted and unmonitored access to             Our recommendations to implement and improve
the Purchase Card Management System (PCMS)                    acquisition processes will enable the FS to reduce
database, password settings not conforming to Federal         administrative costs, reduce costs through competition,
requirements, unverified budget object classification         and acquire a better level of service from vendors and
codes, transactions posted to canceled cards, incorrect       higher quality equipment. The FS agreed to sign EERAs
or missing cardholder data, and unverified lender             on a competitive basis, establish the number of EERAs
rebates.                                                      based on historical analysis, incorporate a best-value
                                                              analysis in the selection process that includes past


18
performance and quality of equipment, and establish        that the controls objectives would be achieved and are
more multiyear EERAs. The FS has committed to              operating effectively. (NITC – General Controls Review
resolving all audit recommendations by the end of FY       FY 2005, Audit Report No. 88501-2-FM)
2006. (FS EERA, Audit Report No. 08601-40-SF)
                                                           Enhanced Security Controls Needed Over
USDA Has Made Significant Progress in Civil                Critical FSA IT Resources
Rights Matters
                                                           FSA generally had implemented sufficient controls to
From February 1997 to March 2000, OIG issued               ensure the integrity of the critical price support loan
5 reports with 43 recommendations to improve               application system, but improvements were warranted
management and administration of program and               in application programming, access, and security.
employee civil rights complaint processing and             Passwords to the price support loan application did
resolution. To correct deficiencies in its program         not adhere to Federal guidance because employees
management and operations, USDA undertook a                were required to divulge passwords, and password
major reorganization of its Office of Civil Rights (CR).   intervals were not properly set; data transmission was
In response to our recommendations, CR developed           not always secure; risk assessment documentation was
a management plan to address its leadership and            incomplete, and contingency plans lacked recovery
organizational culture, and to focus on customers          actions expected of county offices.
and business processes. Our followup review
determined that USDA has made significant progress in      We made a series of recommendations to address the
implementing actions to address program deficiencies       adequacy of key validation controls, mitigate specific
and reduce the backlog of unresolved complaints.           weaknesses, make logical access control guidance
CR completed corrective actions in response to             conform to departmental requirements, ensure that
22 recommendations. For 18 recommendations,                employees obtain passwords and user identifications
corrective actions are still in process. CR needs to       in accordance with Departmental security guidance,
continue its progress in completing agreed-upon            ensure that all sensitive data is transmitted securely,
actions by assigning a responsible individual to lead      establish that all relevant information has been
and monitor the audit resolution process. OIG and CR       considered as part of risk assessment before
are also working to reach agreement on the remaining       acceptance of the work and payment, and revise
three recommendations, which deal with the need            contingency plans for county offices to provide
for operating procedures for case file controls, audit     achievable recovery.
resolution, and compensatory damages and other
program relief. (Followup on the Recommendations           FSA concurred and has performed a preliminary
Made to CR for Program and Employment Complaints,          review and analysis to address the weaknesses,
Audit Report No. 60016-1-Hy)                               and developed a validation control where possible.
                                                           The agency is beginning to develop a Web-based
                                                           eLOAN application process and plans to develop a
NITC General Control Structure – Unqualified
                                                           more in-depth validation system. FSA has revised its
Opinion
                                                           handbook and intends to require password changes
We rendered an unqualified opinion on the general          every 60 days. FSA will also reconsider revamping
controls at the Department’s National Information          its contingency planning. (FSA Price Support Loan
Technology Center (NITC). Our examination was              Application, Audit Report No. 03099-195-KC)
conducted to evaluate the Center’s significant
operations procedures to ensure they are operating
                                                           CSREES Needs To Mitigate Risks to IT Systems
effectively. The Center had taken significant corrective
actions in response to our prior recommendations           The Cooperative State Research, Education, and
within the past year to strengthen its controls and        Extension Service (CSREES) had not complied with
ensure that customer applications and data were            numerous information system security program
appropriately secured. We concluded, therefore, that       requirements for the Cooperative Research, Education,
the Center’s controls, in all material respects, were      and Extension Management System (CREEMS).
suitably designed to provide reasonable assurance          CSREES had not documented its risk assessment,


                                                                                                                  19
prepared a comprehensive contingency plan, provided         comply with Government-wide and departmental IT
annual security awareness training to all users,            security requirements. The agency should continue
completed the official authorization to place or maintain   to monitor and resolve the high- and medium-
a system in operational use, implemented adequate           risk vulnerabilities, and modify the IT components
logical and physical access controls, and provided          of its financial system to use the same payment
adequate legal notice regarding improper access or          allocation processes. CSREES concurred, and we
use of CREEMS. Using security software, we identified       reached management decision on the report’s 14
21 high and 35 medium IT security vulnerabilities,          recommendations. Per the CSREES response to the
and the agency began corrective action. We also             audit, the agency had taken corrective action on 11 of
found that CREEMS and the other systems in the              the 14 recommendations by the release date of the final
CSREES financial management system did not use              audit report. (CSREES Application Controls Review of
consistent calculation processes. As a result, CSREES       CREEMS, Audit Report No. 13501-01-Hy)
personnel had to perform substantial, time-consuming
reconciliation and data consolidation.

We recommended that CSREES immediately mitigate
identified risks to its IT resources and, in particular,
develop and implement policies and procedures that



 ONGOING AND PLANNED REVIEWS FOR GOAL 3

  Topics that will be covered in ongoing or planned         •   FS implementation of the Healthy Forests
  reviews under Goal 3 include:                                 Initiative,
  • management and oversight of the Packers and             •   FS Capital Improvement Program,
      Stockyards Programs (Grain Inspection, Packers        •   followup on recommendations made on FS’
      and Stockyards Administration),                           maintenance backlog,
  • the Department and standalone agencies’                 •   oversight and control of FS activities,
      financial statements for FYs 2004 and 2005            •   FS Stewardship Contracting Program,
      (OCFO),                                               •   FS Forest Legacy Program,
  • USDA certification and accreditation process            •   FSA implementation of finality rule and equitable
      (OCIO),                                                   relief provisions as they relate to identifying
  • management and security over USDA wireless                  improper payments,
      connections (OCIO),                                   •   FSA controls over recovery of advance
  • FYs 2006 and 2007 National Finance Center IT                countercyclical payments that exceed the final
      controls (OCIO),                                          payments,
  • NRCS application controls of program contracts          •   RMA contracting,
      system (OCIO),                                        •   RMA Compliance Office activities,
  • Federal Information Security Management Act             •   crop insurance payments for large-entity farming
      – FY 2006 (OCIO),                                         operations (RMA),
  • USDA progress to implement the Improper                 •   FSA and RMA yield differences, and
      Payments Information Act of 2002,                     •   RMA management controls over producer filing
  • e-Gov security (OCIO),                                      of late acreage reports.
  • review of ARS contract management,
  • ARS intramural research projects,                           The findings and recommendations from these
  • FS large-fire suppression costs,                            efforts will be covered in future semiannual
  • FS collaborative ventures and partnerships with             reports as the relevant audits and investigations
      non-Federal entities,                                     are completed.
  • FS contract firefighting crews,



20
Gauging the Impact of the OIG


PROGRESS AGAINST THE OIG                                                IMPACT OF OIG AUDIT AND
STRATEGIC PLAN                                                          INVESTIGATIVE WORK ON DEPARTMENT
                                                                        PROGRAMS
The first way we gauged our impact was by measuring
the extent to which our work focused on the key issues                  A second way we gauge our impact is by tracking the
under our three strategic goals:                                        outcomes of our audits and investigations. Many of
                                                                        these measures are codified in the Inspector General
	    1. Support USDA in the enhancement of safety                      Act of 1978, as amended. The following pages present
         and security measures to protect USDA and                      a statistical overview of the OIG’s accomplishments this
        agricultural resources and in related public health             period.
        concerns.
	    2. R educe program vulnerabilities and enhance                    For audits we show
        integrity in the delivery of benefits to individuals.           • reports issued
	    3. Increase the efficiency and effectiveness with                 • management decisions made (number of reports
        which USDA manages and employs public                               and recommendations)
        assets and resources, including physical and                    • total dollar impact of management-decided reports
        information resources.                                              (questioned costs and funds to be put to better use)
                                                                        • program improvement recommendations
                                                                        • audits without management decision

                                                                        For investigations we show
                                                                        • indictments
                                                                        • convictions
                                                                        • arrests
                                                                        • total dollar impact (recoveries, restitutions, fines)
                                                                        • administrative sanctions
                                                                        • OIG Hotline complaints


PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS

	                                                        	                     	                FY 2005  	       FY 2005   	
	                                                        FY 2004  	            FY 2005 	        2nd  Half  	     Full  Year
Performance Measures   	                                 Baseline   	          Target   	       Actual   	       Actual



Audit/Investigative resources dedicated 	                81% 	                 90% 	            90% 	            92%
to critical/high-impact work

Audit recommendations resulting in 	                     78% 	                 85% 	            72% 	            87%
management decision within 1 year

Investigative cases where criminal, 	                    61.6% 	               65% 	            66% 	            68%
civil, or administrative action is taken
in response to OIG reports




                                                                                                                                  21
Summary of Audit Activities—April-September 2005

Reports Issued .............................................................................................................................................26
	Audits Performed by OIG ................................................... 25
	  Evaluations Performed by OIG ............................................. 0
	Audits Performed Under the Single Audit Act ...................... 1
	Audits Performed by Others ................................................. 0

Management Decisions Made
	  Number of Reports ..................................................................................................................................30
	  Number of Recommendations . ...............................................................................................................274

Total Dollar Impact (Millions) of Management-Decided Reports ............................................................$4.4
	   Questioned/Unsupported Costs . ....................................................................................... $3.9ab
		     Recommended for Recovery .................................... $1.8
		     Not Recommended for Recovery . ............................ $2.1
	   Funds To Be Put to Better Use ............................................................................................$0.5
a
 	 These were the amounts the auditees agreed to at the time of management decision.
b
 	 The recoveries realized could change as the auditees implement the agreed-upon corrective action plan and
	 seek recovery of amounts recorded as debts due the Department.




Summary of Investigative Activities—April-September 2005

	     Reports Issued..........................................................................................................................................143
	     Cases Opened..........................................................................................................................................186
	     Cases Closed............................................................................................................................................170
	     Cases Referred for Prosecution................................................................................................................75

Impact of Investigations
	  Indictments ..............................................................................................................................................136
	  Convictions ..............................................................................................................................................158a
	  Searches ..................................................................................................................................................72
	Arrests . ....................................................................................................................................................778

Total Dollar Impact (Millions) . .....................................................................................................................$44.9
	   Recoveries/Collections .................................................$14.7b
	   Restitutions ................................................................... $24.7c
	   Fines ...............................................................................$1.0d
	   Claims Established ......................................................... $1.5e
	   Cost Avoidance ..............................................................$2.7f
	Administrative Penalties ................................................. $0.3g

Administrative Sanctions . ...........................................................................................................................71
	  Employees ..............................................................................................................................17
	  Businesses/Persons ...............................................................................................................54
a
  	 Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
	
    therefore, the 158 convictions do not necessarily relate to the 136 indictments.
b
  	 Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  	 Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  	 Fines are court-ordered penalties.
e
  	 Claims established are agency demands for repayment of USDA benefits.
f
 	 Consists of loans or benefits not granted as the result of an OIG investigation.
g
  	 Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.

22
Full FY 2005 Results in Key Categories

OCTOBER 2004-SEPTEMBER 2005

Summary of Audit Activities

Reports Issued .............................................................................................................................................63

Management Decisions Made
	  Number of Reports ..................................................................................................................................70
	  Number of Recommendations . ...............................................................................................................610

Total Dollar Impact (Millions) Of Management-Decided Reports.............................................................$20.7
	   Questioned/Unsupported Costs . ...............................................................................................$11.6
	   Funds To Be Put to Better Use ...................................................................................................$9.1


Summary of Investigative Activities

Reports Issued .............................................................................................................................................285

Impact of Investigations
	  Indictments ..............................................................................................................................................238
	  Convictions ..............................................................................................................................................275
	Arrests . ....................................................................................................................................................928

Total Dollar Impact (Millions) . .....................................................................................................................$106.7

Administrative Sanctions . ...........................................................................................................................485




                                                                                                                                                                     23
INVENTORY OF AUDIT REPORTS
WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005

	 	 	                             NUMBER 	      DOLLAR VALUE


A. 	 FOR WHICH NO MANAGEMENT 	      5	         $5,915,755
	    DECISION HAD BEEN MADE
	    BY APRIL 1, 2005

B. 	 WHICH WERE ISSUED DURING 	     4	       $472,332,163
	    THE REPORTING PERIOD

TOTALS 		                           9	       $478,247,918


C. 	 FOR WHICH A MANAGEMENT 	  1
	    DECISION WAS MADE DURING
	    THE REPORTING PERIOD
		
		      (1)	 DOLLAR VALUE OF 		                 $482,400
			          DISALLOWED COSTS

		 (2) 	 DOLLAR VALUE OF 		                            $0
			      COSTS NOT DISALLOWED

D. 	 FOR WHICH NO MANAGEMENT 	  8	 $477,765,518 		
	    DECISION HAS BEEN MADE BY 				
	    THE END OF THE REPORTING
	    PERIOD

	    REPORTS FOR WHICH NO 	         4	         $5,433,355
	    MANAGEMENT DECISION WAS
	    MADE WITHIN 6 MONTHS
	    OF ISSUANCE




24
INVENTORY OF AUDIT REPORTS
WITH QUESTIONED COSTS AND LOANS
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005

	 	 	                                                                               DOLLAR VALUES

	 	 	                                                      	           QUESTIONED 	             UNSUPPORTEDa
	 	 	                                                   NUMBER 	     COSTS AND LOANS 	         COSTS AND LOANS


A. 	 FOR WHICH NO MANAGEMENT 	                           24 	      $114,890,863 	              $78,221,319
	    DECISION HAD BEEN MADE
	    BY APRIL 1, 2005

B. 	 WHICH WERE ISSUED DURING 	                           6	        $36,064,092 	                        $0 	
	    THIS REPORTING PERIOD

	    TOTALS 	                                            30 	      $150,954,955 	              $78,221,319


C.	 FOR WHICH A MANAGEMENT 	                             10
	   DECISION WAS MADE DURING
	   THIS REPORTING PERIOD

	 (1)	 DOLLAR VALUE OF
		     DISALLOWED COSTS

		          RECOMMENDED FOR RECOVERY 		                              $1,799,434 	                   $786,843

		          NOT RECOMMENDED FOR RECOVERY 		                          $2,078,447 	                    $75,392

	 (2) 	 DOLLAR VALUE OF 		                                          $37,861,492 	              $30,549,953 	
		      COSTS NOT DISALLOWED

D. 	 FOR WHICH NO MANAGEMENT 	                           20 	      $109,400,844 	              $46,809,131 	
	    DECISION HAS BEEN MADE BY 	
	    THE END OF THIS REPORTING
	    PERIOD

	    REPORTS FOR WHICH NO 	                              16 	       $74,503,733 	              $46,809,131
	    MANAGEMENT DECISION WAS
	    MADE WITHIN 6 MONTHS
	    OF ISSUANCE

Unsupported values are included in questioned values.
a




                                                                                                               25
PROGRAM IMPROVEMENT                                         •   AMS agreed to implement protocols for working
RECOMMENDATIONS                                                 with the National Organic Standards Board;
                                                                direct NOP to establish procedures for receiving,
A significant number of our audit recommendations               reviewing, and implementing recommendations
carry no monetary value per se, but their impact can            from the Board; develop and implement internal
be immeasurable in terms of safety, security, and               operating procedures for such things as the
public health. They can also contribute considerably            resolution of complaints to govern program
toward economy, efficiency, and effectiveness                   operations; and resolve the eight cited complaints.
in USDA’s programs and operations. During this
reporting period, we issued 189 program improvement         •   For future LCPs, FSA agreed to seek to establish
recommendations, and management agreed to                       supplemental eligibility criteria, such as producers’
implement a total of 239 program improvement                    proof of loss or an economic analysis to tie the
recommendations that were issued this period or                 program payment rate to economic losses caused
earlier. During the full fiscal year, we issued 352             by the disasters within the eligible areas.
program improvement recommendations, and
management agreed to implement a total of 407               •   We recommended that RUS clarify its definition
program improvement recommendations. Examples                   of eligible rural area and centralize the broadband
of the program improvement recommendations issued               loan and grant programs administration.
this period include the following. See the main text of
this report for a summary of the audits that prompted       •   South Carolina State officials agreed to update
these program improvement recommendations.                      the State servicing plan annually for its RD SFH
                                                                Section 502 loan program to incorporate previously
•    ARS generally agreed with many of our                      issued notices on foreclosure processing, monitor
     recommendations to identify, approve, and monitor          foreclosure processing in order to notify OGC and
     dual-use research projects; in consultation with           USAO officials about foreclosure delays promptly,
     USDA’s Office of the General Counsel (OGC), will           and conduct a cost-benefit analysis and consult
     develop interim criteria for sensitive research;           with appropriate officials about using private
     will develop policies and procedures based on              attorneys to process foreclosure cases.
     risk factors for performing appropriate suitability
     determinations of non-Government scientists            •   NRCS agreed to appoint a Chief Appraiser to
     involved in sensitive research; and will develop           oversee a qualified appraisal staff, develop an
     policies and procedures for submission of deemed           adequate technical appraisal review process, and
     export license applications to DOC before                  strengthen appraisals and periodic internal reviews
     beginning sensitive research projects with foreign         for WRP easements so that appraisals, which could
     scientists.                                                be the basis for the purchase of the conservation
                                                                easements, are performed in accordance with
•    FSIS agreed to revise its form, “Report of Recall          Federal standards.
     Effectiveness,” to require compliance officers to
     explain why any amounts of product purchased by        •   Prompted by general agreement with our
     consignees are not identified. FSIS also agreed to         recommendations, FSA has organized a task force
     revise its procedures to provide specific direction        to examine its myriad compliance reviews.
     on identifying and evaluating the amount of product
     purchased by the consignees and guidance on            •   CR agreed to assign a responsible individual to
     when it is acceptable to not identify this amount.         lead and monitor the audit resolution process.

•    FSIS has taken some corrective steps, and we are       •   CSREES agreed to immediately mitigate identified
     continuing our work with it to address our series of       risks to its IT resources and, in particular, develop
     recommendations to provide greater oversight over          and implement policies and procedures that
     HACCP implementation, SSOPs, and independent               comply with Government-wide and departmental IT
     reviews and supervision of plant and inspection            security requirements.
     activities.


26
SUMMARY OF AUDIT REPORTS RELEASED
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005
DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2005, THE OFFICE OF INSPECTOR GENERAL
ISSUED 26 AUDIT REPORTS, INCLUDING 0 PERFORMED BY OTHERS.
THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:

	                                                         AUDITS	       QUESTIONED	        UNSUPPORTEDa 	      FUNDS BE PUT 	
AGENCY 	                                                 RELEASED 	   COSTS AND LOANS 	   COSTS AND LOANS 	    TO BETTER USE


AGRICULTURAL MARKETING SERVICE 	                            3
AGRICULTURAL RESEARCH SERVICE 	                             1
ANIMAL AND PLANT HEALTH INSPECTION SERVICE 	                3 			                                                $689,354
CHIEF INFORMATION OFFICER 	                                 1
CIVIL RIGHTS 	                                              1
COOPERATIVE STATE RESEARCH, EDUCATION
	AND EXTENSION SERVICE 	                                    1
FARM SERVICE AGENCY 	                                       3	            $18,747 		                            $3,741,157
FOOD AND NUTRITION SERVICE 	                                1	           $235,120
FOOD SAFETY AND INSPECTION SERVICE 	                        2
FOREST SERVICE 	                                            1
MULTIAGENCY 	                                               2
NATURAL RESOURCES CONSERVATION SERVICE 	                    1	            $62,295 		                          $159,838,448
OFFICE OF THE CHIEF FINANCIAL OFFICER 	                     1
RISK MANAGEMENT AGENCY 	                                    1
RURAL BUSINESS-COOPERATIVE SERVICE 	                        1	         $2,502,954
RURAL HOUSING SERVICE 	                                     1	           $931,861
RURAL UTILITIES SERVICE 	                                   2	        $32,313,115 		                          $308,063,204
 	 TOTALS 	                                                26 	       $36,064,092 	 $0 	                      $472,332,163

	 TOTAL COMPLETED:
		   SINGLE AGENCY AUDIT 	                                 24
		   MULTIAGENCY AUDIT 	                                    2
		   SINGLE AGENCY EVALUATION 	                             0
		   MULTIAGENCY EVALUATION 	                               0

	    TOTAL RELEASED NATIONWIDE 	                           26

	    TOTAL COMPLETED UNDER CONTRACTb	                       0

	    TOTAL SINGLE AUDIT ISSUEDc 	                           1

	 Unsupported values are included in questioned values
a

	 Indicates audits performed by others
b

	 Indicates audits completed as Single Audit
c




                                                                                                                   Continued…




                                                                                                                            27
SUMMARY OF AUDIT REPORTS RELEASED
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005

AUDIT NUMBER	    	                                          QUESTIONED	        UNSUPPORTED 	      FUNDS BE PUT
RELEASE DATE 	   TITLE	                                   COSTS AND LOANS 	   COSTS AND LOANS 	   TO BETTER USE

AGRICULTURAL MARKETING SERVICE

010010002HY	AMS’ NATIONAL ORGANIC PROGRAM
2005/07/14
010990028AT 	 PESTICIDE DATA AND RECORDKEEPING
2005/05/02 	  PROGRAMS
010990031HY 	AGRICULTURAL MARKETING SERVICE’S
2005/09/07 	  PURCHASE SPECIFICATION REQUIREMENTS
		            FOR GROUND BEEF

TOTAL:	AGRICULTURAL MARKETING SERVICE	                3


AGRICULTURAL RESEARCH SERVICE

026010001CH 	ADEQUACY OF CONTROLS TO PREVENT THE
2005/09/30	  IMPROPER TRANSFER OF SENSITIVE TECHNOLOGY

TOTAL:	AGRICULTURAL RESEARCH SERVICE 	                1


ANIMAL AND PLANT HEALTH INSPECTION SERVICE

330020003SF	APHIS ANIMAL CARE PROGRAM INSPECTION AND			                                            $689,354
2005/09/30 	  ENFORCEMENT ACTIVITIES
330990005CH 	 NATIONAL COOPERATIVE STATE/FEDERAL BOVINE
2005/04/20 	  TUBERCULOSIS ERADICATION PROGRAM
336010002AT 	 IMPLEMENTATION OF THE LISTED AGENT OR TOXIN
2005/06/23 	  REGULATIONS	

TOTAL:	ANIMAL AND PLANT HEALTH 	                      3 			                                        $689,354
	      INSPECTION SERVICE


CHIEF INFORMATION OFFICER

885010002FM 	 NITC GENERAL CONTROLS REVIEW - FISCAL
2005/09/21 	  YEAR 2005

TOTAL:	 CHIEF INFORMATION OFFICER 	                   1


CIVIL RIGHTS

600160001HY 	    FOLLOWUP ON THE RECOMMENDATIONS MADE TO
2005/09/08 	     THE OFFICE OF CIVIL RIGHTS FOR PROGRAM AND
		               EMPLOYMENT COMPLAINTS

TOTAL:	 CIVIL RIGHTS 	                                1




28
SUMMARY OF AUDIT REPORTS RELEASED
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005

AUDIT NUMBER	    	                                            QUESTIONED	        UNSUPPORTED 	      FUNDS BE PUT
RELEASE DATE 	   TITLE	                                     COSTS AND LOANS 	   COSTS AND LOANS 	   TO BETTER USE


COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE

135010001HY 	APPLICATION CONTROLS REVIEW OF CREEMS
2005/07/08

TOTAL:	 COOPERATIVE STATE RESEARCH, EDUCATION	         1
	AND EXTENSION SERVICE


FARM SERVICE AGENCY

030990052KC 	    SURVEY OF EMERGENCY FEED AND LIVESTOCK 	  $18,747
2005/09/30 	     COMPENSATION PROGRAMS
030990195KC 	    REVIEW OF APPLICATION CONTROLS-AUTOMATED
2005/09/30 	     PRICE SUPPORT LOAN APPLICATION
036010012CH 	    FARM SERVICE AGENCY COMPLIANCE ACTIVITIES 			                                      $3,741,157
2005/09/30

TOTAL:	 FARM SERVICE AGENCY 	                          3	        $18,747 		                         $3,741,157


FOOD AND NUTRITION SERVICE

270100019CH 	 CONTROLS OVER THE MINNESOTA DEPARTMENT OF	 $235,120
2005/06/22 	  EDUCATION’S USE OF FEDERAL FUNDS

TOTAL: FOOD AND NUTRITION SERVICE 	                    1	       $235,120


FOOD SAFETY AND INSPECTION SERVICE

246010004HY 	    FSIS OVERSIGHT OF THE 2004 QUAKER MAID MEATS
2005/05/18 	     RECALL
246010005AT 	    HACCP-COMPLIANCE BY VERY SMALL PLANTS
2005/06/24

TOTAL:	 FOOD SAFETY AND INSPECTION SERVICE 	           2


FOREST SERVICE

086010040SF 	 FOREST SERVICE EMERGENCY EQUIPMENT RENTAL
2005/07/06 	AGREEMENTS

TOTAL:	 FOREST SERVICE 	                               1


MULTIAGENCY

500220009TE 	    SINGLE AUDIT MANAGEMENT-NATIONAL RURAL
2005/06/13 	     WATER ASSOCIATION, INC.
506010002HY 	    REVIEW OF MANAGEMENT OVERSIGHT OF FEDERAL
2005/09/09 	     EMPLOYEES’ COMPENSATION ACT OPERATIONS

TOTAL:	 MULTIAGENCY 	                                  2


                                                                                                              29
SUMMARY OF AUDIT REPORTS RELEASED
FROM APRIL 1 THROUGH SEPTEMBER 30, 2005

AUDIT NUMBER	    	                                             QUESTIONED	        UNSUPPORTED 	        FUNDS BE PUT
RELEASE DATE 	   TITLE	                                      COSTS AND LOANS 	   COSTS AND LOANS 	     TO BETTER USE

NATURAL RESOURCES CONSERVATION SERVICE

100990003SF 	    WETLANDS RESERVE PROGRAM COMPENSATION 	          $62,295 		                         $159,838,448
2005/08/08 	     FOR WRP EASEMENTS

TOTAL:	 NATURAL RESOURCES CONSERVATION SERVICE 	       1	         $62,295 		                         $159,838,448


OFFICE OF THE CHIEF FINANCIAL OFFICER

110990044FM 	 POTENTIAL IMPROPER PAYMENTS/PURCHASE CARD
2005/09/02 	  MANAGEMENT SYSTEM

TOTAL: 	 OFFICE OF THE CHIEF FINANCIAL OFFICER 	       1


RISK MANAGEMENT AGENCY

056010012TE 	    REVIEW OF PILOT PROGRAMS
2005/05/24

TOTAL: 	 RISK MANAGEMENT AGENCY 	                      1


RURAL BUSINESS - COOPERATIVE SERVICE

340990007TE 	 REQUEST AUDIT OF B&I GUARANTEED LOAN IN 	       $2,502,954
2005/09/29 	ARKANSAS

TOTAL: 	 RURAL BUSINESS-COOPERATIVE SERVICE 	          1	      $2,502,954


RURAL HOUSING SERVICE

040990340AT 	    SINGLE-FAMILY HOUSING PROGRAM IN SOUTH 	       $931,861
2005/08/31 	     CAROLINA

TOTAL: 	 RURAL HOUSING SERVICE 	                       1	        $931,861


RURAL UTILITIES SERVICE

090990003HY 	    WATER GRANTS TO THE CITY OF FROSTBURG, MD
2005/06/14
096010004TE 	    BROADBAND GRANT AND LOAN PROGRAMS 		        $32,313,115 		                          $308,063,204
2005/09/30

TOTAL:	 RURAL UTILITIES SERVICE 	                      2	     $32,313,115 		                         $308,063,204


GRAND TOTAL: 		                                      26 	    $36,064,092		                           $472,332,163




30
 AUDITS WITHOUT MANAGEMENT DECISION

The Inspector General Act has a number of reporting     follow this table. An asterisk (*) indicates that an audit
requirements, among them tracking audits without        is pending judicial, legal, or investigative proceedings
management decision. The following audits did not       that must be completed before the agency can act to
have management decisions made within the 6-month       complete management decisions.
limit imposed by Congress. Narratives for new entries



 NEW SINCE LAST REPORTING PERIOD

	              	                     	                                             	                   Amount With	
	              	                     	                                       Total Value 	               No Mgmt.	
	              	                     	                                       at Issuance 	                Decision	
Agency 	       Date Issued 	         Title of Report	                        (in dollars) 	             (in dollars)
						
APHIS 	 03/31/05 	 1. 	 Transition and Coordination of 	 0	                                                 0
			                     Border Inspection Activities
			                     Between USDA and DHS
			                     (33601-5-Ch)

FSIS 	 11/24/04 	 2. 	Application Control Review of FSIS’ 	                       0	                        0
			                   PBIS System (24501-1-FM)

Multiagency 	 03/31/05 	 3. 	 Implementation of the Federal 	                     0	                        0 		
			                           Research Misconduct Policy
			                           in USDA (50099-11-Hy)

RHS 	 03/23/05 	 4. 	 Subsidy Payment Accuracy 	                                  0	                        0 		
			                   in Multi-Family Housing (MFH)
			                   Programs (04099-339-At)




                                                                                                                       31
 PREVIOUSLY REPORTED BUT NOT YET REsolved
These audits are still pending agency action or are          have been informed of actions that must be taken to
under judicial, legal, or investigative proceedings.         reach management decision, but for various reasons
Details on the recommendations where management              the actions have not been completed. The appropriate
decisions had not been reached have been reported in         Under and Assistant Secretaries have been notified of
previous Semiannual Reports to Congress. Agencies            those audits without management decisions.

	              	                    	                                                 	                Amount With	
	              	                    	                                           Total Value 	            No Mgmt.	
	              	                    	                                           at Issuance 	             Decision	
Agency 	       Date Issued 	        Title of Report	                            (in dollars) 	          (in dollars)


APHIS 	 02/20/03 	 5. 	 Safeguards To Prevent Entry of 	                                 0	                     0
			                     Prohibited Pests and Diseases
			                     Into the United States (33601-3-Ch)

	 09/30/04 	 6. 	 Wildlife Services – Aerial 	                                   25,208 	                25,208
			Acquisition Procedures
			               (33099-1-KC)


CR 	 03/24/99 	 7. 	 Evaluation of CR Management 	                                       0	                     0
			                  of Settlement Agreements
			                  (60801-2-HQ)

	 03/10/00 	 8. 	                   Status of Implementation of 	                        0	                     0 		
			                                 Recommendations Made in
			                                 Prior Evaluations of Program
			                                 Complaints (60801-4-HQ)


FNS 	 05/11/01 	 9. 	 NSLP – FSMCs 	                                          3,572,137 	             2,815,826 		
			                   (27601-12-KC)

	 09/06/01 	 10.	 NSLP – FSMCs 	                                              3,537,912 	               236,749 		
			               (27601-24-Ch)

	 11/21/01 	 11. 	CACFP – Wildwood, Inc., 	                                  36,895,611 	            36,895,611 		
			               Phase II (27010-6-KC)

	 03/29/02 	 12. 	NSLP – Chartwell’s FSMC 	                                     307,711 	               307,711
			               (27601-13-KC)

	 06/25/04 	 13. 	Philadelphia NSLP Computer 	                                  867,424 	               867,424 		
			Attendance/Meal Claim Analysis
			               (27010-31-Hy)




32
	             	                   	                                      	          Amount With	
	             	                   	                                Total Value 	      No Mgmt.	
	             	                   	                                at Issuance 	       Decision	
Agency 	      Date Issued 	       Title of Report	                 (in dollars) 	    (in dollars)


FSIS 	 06/21/00 	 14. 	Implementation of HACCP 	                            0	               0 		
			                    System (24001-3-At)

	 09/30/03 	 15. 	Oversight of Production Process 	                         0	               0 		
			               and Recall at ConAgra Plant
			               (Establishment 969) (24601-2-KC)

	 09/30/04 	 16. 	Use of Food Safety Information 	                          0	               0 		
			               Systems (24601-3-Ch)


Multiagency 	 09/30/03 	 17. 	Implementation of Agricultural 	              0	               0 		
			                           Risk Protection Act (50099-12-KC)

	 09/30/03 	 18.	 2000 Crop Disaster Program 	                       20,049 	         19,650
			               (50099-15-KC)

	 02/23/04 	 19. 	Homeland Security Issues 	                                0	               0
			               for USDA Grain and Commodities
			               Inventory (50099-13-KC)

	 03/04/04 	 20. 	Controls Over Plant Variety 	                             0	               0
			               and Germplasm Storage
			               (50601-6-Te)


RBS 	 01/28/02 	 21. 	Lender Servicing of 	                       1,536,060 	       1,536,060
			                   B&I Guaranteed Loans,
			                   Florida (34601-3-At)

	 01/10/03 	 22. 	Lender Servicing of B&I 	                       3,766,908 	       3,766,908 		
			               Guaranteed Loans in
			               Georgia (34601-4-At)

	 08/27/03 	 23. 	RD – Lender Servicing of 	                      9,145,549 	        224,951
			               B&I Guaranteed Loans in
			               Georgia (34601-5-At)

	 09/30/03 	 24. 	RD – Liquidation of B&I 	                        818,121 	            3,560 		
			               Guaranteed Loans
			               (34601-8-SF)

	 09/30/03 	 25. 	Request Audit of B&I Loan 	                     5,585,136 	       1,382,301
			               in Louisiana (34099-5-Te)

	 04/23/04 	 26. 	RBS Value-Added Agricultural 	                            0	               0
			               Product Market Development
			               Grants (VADG) (34601-3-KC)




                                                                                                    33
	           	                 	                                 	          Amount With	
	           	                 	                           Total Value 	      No Mgmt.	
	           	                 	                           at Issuance 	       Decision	
Agency 	    Date Issued 	     Title of Report	            (in dollars) 	    (in dollars)


RHS 	 05/25/00 	 27. 	RRH – Nationwide Initiative in 	   4,922,879 	       4,807,001
			                   MO – Lockwood Management
			                   Co., St. Louis, MO (04801-2-KC)
	
	     09/28/01 	 28. 	RRH Program Insurance 	             596,665 	          79,442 		
			                   Expenses, Phase II
			                   (04601-4-KC)

	 06/26/03 	 29. 	RD – RRH Program, Tenant 	             7,781,635 	       3,183,305 		
			               Income Verification, Gainesville,
			               FL (04004-3-At)

	 09/30/04 	 30. 	RRH Project Costs, 	                    164,000 	         164,000 		
			               Cairo, IL (04099-143-Ch)*


RMA 	 02/28/01 	 31. 	FY 2000 FCIC Financial 	                     0	               0 		
			                   Statements (05401-1-HQ)

	 03/15/02 	 32. 	Monitoring of RMA’s 	                            0	               0
			               Implementation of Manual 14
			               Reviews/Quality Control Review
			               System (05099-14-KC)

	 05/21/04 	 33. 	Crop Insurance APH 	                    394,080 	         354,801
			               (05099-25-At)




34
 AUDITS WITHOUT MANAGEMENT DECISION – NARRATIVE FOR NEW ENTRIES

1. Transition and Coordination of Border                   3. Implementation of the Federal Research
Inspection Activities Between USDA and the                 Misconduct Policy in USDA (50099-11-Hy),
U.S. Department of Homeland Security (DHS)                 Issued March 31, 2005
(33601-5-Ch), Issued March 31, 2005
                                                           Although USDA was required to implement Office of
Management decisions are open for the report’s three       Science and Technology Policy research procedures
recommendations. APHIS had accomplished much               by December 6, 2001, as of March 31, 2005, the
in implementing the agreements entered into by the         Department had not assigned responsibilities to a
Secretaries of Agriculture and Homeland Security           specific USDA entity nor published implementing
to effect the transfer of inspection responsibilities in   regulations. USDA still needs to establish an oversight
March 2003. However, because key issues remained           process to ensure fair and prompt processing of
unresolved between APHIS and CBP, APHIS could not          misconduct allegations; assign responsibilities
ensure that CBP agricultural inspection operations at      for extramural research misconduct allegations to
ports-of-entry and border crossings were effective. We     a specific USDA entity; and develop extramural
recommended that APHIS develop and implement a             guidelines for conducting research misconduct
process to promptly elevate critical, unresolved issues    investigations, adjudicate the results, and recapture
to higher levels within the Department; and work with      misused funds.
both CBP and FSIS to implement a system under which
CBP would directly notify FSIS of all meat shipments
                                                           4. Subsidy Payment Accuracy in MFH
being sent for reinspection. Agency officials concurred
                                                           Programs (04099-339-At), Issued March 23,
with the need to address these issues, but proposed to
                                                           2005
submit alternative corrective actions, and are working
on a further response.                                     RHS had not implemented previous recommendations
                                                           to improve controls over tenant income verification
                                                           and had not sought legislation granting it authority to
2. Application Control Review of FSIS’
                                                           access Federal and State income benefit databases
Performance-Based Inspection Service (PBIS)
                                                           for matching. Only 31 State offices had matching
System (24501-1-FM), Issued November 24,
                                                           agreements with their respective State departments
2004
                                                           of labor. Two of five recommendations to strengthen
We have reached management decision on 10 of 11            income verification controls remain open. We are
recommendations. For the remaining recomendation,          awaiting the agency’s description of policies and
FSIS needs to implement policy and establish controls      procedures for establishing claims and collecting
to ensure that management reports and data analyses        overpayments, as well as plans for formalizing
be generated from the most up-to-date data available.      permanent policies and procedures regarding the
                                                           recommendations.




                                                                                                                 35
 Indictments and Convictions

Between April 1 and September 30, 2005, OIG                 Indictments and Convictions
completed 170 investigations. We referred 75 cases to       April 1 – September 30, 2005
Federal, State, and local prosecutors for their decision.
                                                            Agency 	                                Indictments 	                            Convictions*
During the reporting period, our investigations led
to 136 indictments and 158 convictions. The period          APHIS 	                                           14 	                                      32
of time to obtain court action on an indictment             ARS 	                                              0	                                        5
varies widely; therefore, the 158 convictions do not        FAS 	                                              1	                                        0
necessarily relate to the 136 indictments. Fines,           FNS 	                                             70 	                                      74
recoveries/collections, restitutions, claims established,   FS 		                                              3	                                        3
cost avoidance, and administrative penalties resulting      FSA 	                                             24 	                                      26
from our investigations totaled about $44.9 million.        FSIS 	                                             1	                                        3
                                                            NRCS 	                                             5	                                        6
The following is a breakdown, by agency, of                 OCFO 	                                             2	                                        1
indictments and convictions for the reporting period.       OIG** 	                                            4	                                        0
                                                            OJO 	                                              1	                                        0
                                                            RBS 	                                              3	                                        0
                                                            RHS 	                                              8	                                        3
                                                            RMA 	                                              0	                                        5

                                                            Totals 	                                        136 	                                      158
                                                            *
                                                                This category includes pretrial diversions.
                                                            **
                                                                Not OIG employees, but rather results from our active participation in the FBI JTTF.




36
 Office of Inspector General Hotline

The OIG Hotline serves as a national receiving point for                this reporting period, the OIG Hotline received 486
reports from both employees and the general public of                   complaints, which included allegations of participant
suspected incidents of fraud, waste, mismanagement,                     fraud, employee misconduct, and mismanagement, as
and abuse in USDA programs and operations. During                       well as opinions about USDA programs.


Figure 1 displays the volume and type of the complaints we              Figure 2 displays the disposition of those complaints.
received.

                                    Health/Safety 7                              Referred to FNS
                                                                                 for Tracking 89
                                                          Opinion/                                                                    Referred to
                                                          Information                                                                 State Agency 1
                                                          65
                                                                                                     Referred to USDA Agencies
         Participant Fraud 192                                                                       for Response 213



                                       Employee Misconduct 101
          Waste/Mismanagement 119




    Reprisal 2                                                                Referred to                                               Referred to
                                                                          USDA or Other             Filed Without                       Other Law
                                                                            Agencies for     Referral-Insufficient                      Enforcement
                                                                            Information-          Information 30                        Agencies 1
                                                                           No Response
                                                                              Needed 97                                          Referred to
                                                                                                                                 OIG Audit or
                                                                                                                                 Investigations
                                                                                                                                 for Review 55




                                                                                                                                                  37
 Freedom of Information Act (FOIA) and Privacy Act (PA) Requests for
 the Period April 1 to September 30, 2005

Number of FOIA/PA Requests Received 		                   92

Number of FOIA/PA Requests Processed: 		                145
Number Granted 	                       22
Number Partially Granted 	             43
Number Not Granted 	                   80

Reasons for Denial:
No Records Available 	                        27
Referred to Other Agencies 	                   6
Requests Denied in Full (Exemption 7A) 	      14
Requests Denied in Full (Exemption 7E) 	       1
Request Withdrawn 	                           15
Fee-Related 	                                  2
Not a Proper FOIA Request 	                    4
Not an Agency Record 	                         2
Duplicate Request 	                            2
Other 	                                        7

Requests for OIG Reports From Congress
and Other Government Agencies
Received 		                                              10
Processed 		                                             11

Appeals Processed 		                                      3
Appeals Completely Upheld 	   2
Appeals Partially Reversed 	  1
Appeals Completely Reversed 	 0
Appeals Requests Withdrawn 	  0

Number of OIG Reports/Documents 		                       40
Released in Response to Requests

NOTE: A request may involve more than one report.

During this 6-month period, 28 audit reports were posted to
the Internet at the OIG Web site: http://www.usda.gov/oig




38
Abbreviations of Organizations


AC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Animal Care
AMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Agricultural Marketing Service
APHIS . . . . . . . . . . . . . . . . . . . . . Animal and Plant Health Inspection Service
ARS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Agricultural Research Service
CBP . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Customs and Border Protection
CI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Criminal Investigation
CR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Civil Rights
CSREES . . . Cooperative State Research, Education, and Extension Service
DHS . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Department of Homeland Security
DOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Department of Commerce
FAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Foreign Agricultural Service
FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Bureau of Investigation
FCIC . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Crop Insurance Corporation
FNS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Food and Nutrition Service
FS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Forest Service
FSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Farm Service Agency
FSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . Food Safety and Inspection Service
GSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Services Administration
HHS . . . . . . . . . . . . . . . . . . U.S. Department of Health and Human Services
IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Internal Revenue Service
ITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Information Technology Services
JTTF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Joint Terrorism Task Force
MDA. . . . . . . . . . . . . . . . . . . . . . . . . . . .  Michigan Department of Agriculture
NIST . . . . . . . . . . . . . . . . . . . National Institute of Standards and Technology
NRCS . . . . . . . . . . . . . . . . . . . . . . . Natural Resources Conservation Service
OCFO . . . . . . . . . . . . . . . . . . . . . . . . . . .  Office of the Chief Financial Officer
OCIO . . . . . . . . . . . . . . . . . . . . . . . . . .  Office of the Chief Information Officer
OGC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the General Counsel
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
OJO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Judicial Officer
OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget
OPPM . . . . . . . . . . . . . . . . Office of Procurement and Property Management
PPQ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Plant Protection and Quarantine
RBS . . . . . . . . . . . . . . . . . . . . . . . . . . . . Rural Business-Cooperative Service
RD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Rural Development
RHS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Rural Housing Service
RMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Risk Management Agency
RUS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  Rural Utilities Service
TDH . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Texas Department of Health
USAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Attorney’s Office
USDA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Department of Agriculture
VS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Veterinary Services




                                                                                                                   39
Key OIG Accomplishments in
This Reporting Period

 RESULTS IN KEY CATEGORIES                             EXAMPLES OF PROGRAM
                                                       IMPROVEMENT RECOMMENDATIONS
                                                       MANAGEMENT AGREED TO
SUMMARY OF AUDIT ACTIVITIES
                                                       DURING THIS REPORTING PERIOD
Reports Issued
                                                       (239 TOTAL)
	   Number of Reports 		                     26
	   Number of Recommendations 		            189
Management Decisions Made                          •    ARS generally agreed with many of our
	   Number of Reports 		                     30         recommendations to identify, approve, and monitor
	   Number of Recommendations 		            274         dual-use research projects.
Total Dollar Impact (Millions)                     •    AMS agreed to implement protocols for working
Of Management-Decided Reports 		            $4.4        with the National Organic Standards Board;
	   Questioned/Unsupported Costs 	  $3.9                direct NOP to establish procedures for receiving,
	   Funds To Be Put to Better Use 	 $0.5                reviewing, and implementing recommendations
                                                        from the Board; develop and implement internal
                                                        operating procedures for such things as the
Summary of Investigative Activities                     resolution of complaints to govern program
Reports Issued 		                           143         operations; and resolve the eight cited complaints.
Impact of Investigations                           •    For future LCPs, FSA agreed to seek to establish
	   Indictments 		                           136        supplemental eligibility criteria, such as producers’
	   Convictions 		                           158        proof of loss or an economic analysis to tie the
	Arrests 		                                  778        program payment rate to economic losses caused
Total Dollar Impact (Millions) 		          $44.9        by the disasters within the eligible areas.
Administrative Sanctions 		                   71   •    South Carolina State officials agreed to update
                                                        the State servicing plan annually for its RD
                                                        Single-Family Housing Section 502 loan program
                                                        to incorporate previously issued notices on
                                                        foreclosure processing, monitor foreclosure
                                                        processing in order to notify OGC and USAO
                                                        officials about foreclosure delays promptly, and
                                                        conduct a cost-benefit analysis and consult with
                                                        appropriate officials about using private attorneys
                                                        to process foreclosure cases.
                                                   •    NRCS agreed to appoint a Chief Appraiser to
                                                        oversee a qualified appraisal staff, develop an
                                                        adequate technical appraisal review process, and
                                                        strengthen appraisals and periodic internal reviews
                                                        for WRP easements.
                                                   •    CR agreed to assign a responsible individual to
                                                        lead and monitor the audit resolution process.
                                                   •    CSREES agreed to immediately mitigate identified
                                                        risks to its IT resources and, in particular, develop
                                                        and implement policies and procedures that
                                                        comply with Government-wide and departmental IT
                                                        security requirements.
The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national
origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic infor-
mation, political beliefs, reprisal, or because all or part of an individual’s income is derived from any public assistance program. (Not all
prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program informa-
tion (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720–2600 (voice and TDD). To file a complaint
of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call
(800) 795–3272 (voice) or (202) 720–6382 (TDD). USDA is an equal opportunity provider and employer.
